<html>
<title> - HATE CRIMES AND THE RISE OF WHITE NATIONALISM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      HATE CRIMES AND THE RISE OF WHITE 
                                  NATIONALISM

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CRIME, TERRORISM, AND 
                            HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, APRIL 9, 2019

                               __________

                           Serial No. 116-15

                               __________

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


               Available via: http://judiciary.house.gov              
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-563                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------             
               
               
                       COMMITTEE ON THE JUDICIARY

                    JERROLD NADLER, New York, Chair
               MARY GAY SCANLON, Pennsylvania, Vice-Chair
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         MARTHA ROBY, Alabama
DAVID N. CICILLINE, Rhode Island     MATT GAETZ, Florida
ERIC SWALWELL, California            MIKE JOHNSON, Louisiana
TED LIEU, California                 ANDY BIGGS, Arizona
JAMIE RASKIN, Maryland               TOM MCCLINTOCK, California
PRAMILA JAYAPAL, Washington          DEBBIE LESKO, Arizona
VAL BUTLER DEMINGS, Florida          GUY RESCHENTHALER, Pennsylvania
J. LUIS CORREA, California           BEN CLINE, Virginia
SYLVIA R. GARCIA, Texas              KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado                 W. GREGORY STEUBE, Florida
LUCY MCBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        PERRY APELBAUM, Majority Staff Director & Chief of Staff
                 CHRIS HIXON, Minority Staff Director 

        SUBCOMMITTEE ON CRIME, TERRORISM, AND HOMELAND SECURITY

                     KAREN BASS, California, Chair
                    VAL DEMINGS, Florida, Vice-Chair
SHEILA JACKSON LEE, Texas            JIM JORDAN, Ohio, Ranking Member
LUCY MCBATH, Georgia                 F. JAMES SENSENBRENNER, Jr., 
TED DEUTHCH, Florida                     Wisconsin
CEDRIC RICHMOND, Louisiana           STEVE CHABOT, Ohio
HAKEEM JEFFRIES, New York            LOUIE GOHMERT, Texas
DAVID N. CICILLINE, Rhode Island     TOM MCCLINTOCK, California
TED LIEU, California                 DEBBIE LESKO, Arizona
MADELINE DEAN, Pennsylvania          GUY RESCHENTHALER, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida      BEN CLINE, Virginia
VERONICA ESCOBAR, Texas              W. GREGORY STEUBE, Florida
STEVEN COHEN, Tennessee

                   JOE GRAUPENSPERGER, Chief Counsel
                    JASON CERVENAK, Minority Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                             April 9, 2019

                                                                   Page

                           OPENING STATEMENTS

The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman of the Committee on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     3

                               WITNESSES

Eileen Hershenov, Senior Vice President of Policy for the Anti-
  Defamation League..............................................     6
  Oral Testimony.................................................     6
  Prepared Testimony.............................................     8
Mohammad Abu-Salha, Eastern Virginia Medical School..............    41
  Oral Testimony.................................................    41
  Prepared Testimony.............................................    43
Eva Paterson, President and Co-Founder of the Equal Justice 
  Society........................................................    48
  Oral Testimony.................................................    48
  Prepared Testimony.............................................    50
Neil Potts, Public Policy Director for Facebook..................    53
  Oral Testimony.................................................    53
  Prepared Testimony.............................................    55
Alexandria Walden, Google at the Global Network Initiative.......    61
  Oral Testimony.................................................    61
  Prepared Testimony.............................................    63
Morton Klein, President of the Zionist Organization of America...    67
  Oral Testimony.................................................    67
  Prepared Testimony.............................................    70
Candace Owens, Director of Communications for Turning Point USA..    94
  Oral Testimony.................................................    94
Kristen Clarke, President and Executive Director of the National 
  Lawyers' Committee for Civil Rights............................    96
  Oral Testimony.................................................    96
  Prepared Testimony.............................................    98

          LETTER, MATERIAL, ARTICLES SUBMITTED FOR THE RECORD

Letter to Honorable William Barr, U.S. Attorney General of the 
  Department of Justice from Representative Steve Cohen, a Member 
  of Congress of the State of Tennessee and a Member of the 
  Committee on the Judiciary.....................................   112
Article from Knoxville News Sentinel, Swastikas painted on the 
  Rock at the University of Tennessee--again, U.S. Attorney 
  General of the Department of Justice from Representative Steve 
  Cohen, a Member of Congress of the State of Tennessee and a 
  Member of the Committee on the Judiciary.......................   114
Article from the New York Times submitted by Representative Steve 
  Cohen, a Member of Congress of the State of Tennessee and a 
  Member of the Committee on the Judiciary.......................   123
Statement of Vanita Gupta, President and CEO of the Leadership 
  Conference on Civil and Human Rights submitted by 
  Representative Jerrold Nadler, a Member of Congress of the 
  State of New York, Chairman of the Committee on the Judiciary..   136
Statement of American Arab Anti-Discrimination Committee (ADC); 
  Arab American Association of New York (AAANY); Asian/Pacific 
  Islander Domestic Violence Resource Project (API DVRP); DRUM--
  Desis Rising Up & Moving; HEART Women & Girls; Justice For 
  Muslims Collective; Muslim Anti-Racism Collaborative; National 
  Network for Arab American Communities (NNAAC); National Queer 
  Asian Pacific Islander Alliance (NQAPIA); Sikh Coalition; South 
  Asian Americans Leading Together (SAALT); The Partnership for 
  the Advancement of New American (PANA); and United We Dream 
  submitted by Representative Jerrold Nadler, a Member of 
  Congress of the State of New York, Chairman of the Committee on 
  the Judiciary..................................................   143
Testimony from the Simon Wiesenthal Center: Mark Weitzman, 
  Director of Government Affairs submitted by Representative 
  Jerrold Nadler, a Member of Congress of the State of New York, 
  Chairman of the Committee on the Judiciary.....................   151
Letter from the National Association for the Advancement of 
  Colored People (NAACP) submitted to Representative Jerrold 
  Nadler, a Member of Congress of the State of New York, Chairman 
  of the Committee on the Judiciary and Representative Doug 
  Collins, a Member of Congress of the State of Georgia, Ranking 
  Member of the Committee on the Judiciary.......................   164
Materials submitted by Representative Andy Biggs, a Member of 
  Congress of the State of Arizona, Member of the Committee on 
  the Judiciary Committee........................................   172
Letter dated June 7, 2017 to Honorable Jeff Sessions, Attorney 
  General of the U.S. Department of Justice, the Honorable John 
  Kelly Secretary of Homeland Security of the U.S. Department of 
  Homeland Security, and the Honorable Andrew McCabe, Acting 
  Director of the Federal Bureau of Investigations submitted by 
  Representative Cedric Richmond, a Member of Congress of the 
  State of Louisiana, Chair of the Congressional Black Caucus and 
  Member of the Committee on the Judiciary Committee.............   188
Testimony from the Western States Center submitted by 
  Representative Pramila Jayapal, a Member of Congress of the 
  State of Washington, Member of the Committee on the Judiciary..   208
Letter from Martin Gaynor and Daniel Leger submitted by 
  Representative Lucy McBath, a Member of Congress of the State 
  of Georgia, and Member of the Committee on the Judiciary.......   222
Article from The New York Times titled ``3 Black Churches Have 
  Burned in 10 Days in a Single Louisiana Parish'' submitted by 
  Representative Sheila Jackson Lee, a Member of Congress of the 
  State of Texas, and Member of the Committee on the Judiciary...   234
Article from The New York Times titled ``Hate Crimes Increase for 
  the Third Consecutive Year, F.B.I. Reports'' submitted by 
  Representative Sheila Jackson Lee, a Member of Congress of the 
  State of Texas, and Member of the Committee on the Judiciary...   236
Article from The Washington Post titled ``Counties that hosted a 
  2016 Trump rally saw a 226 percent increase in hate crimes'' 
  submitted by Representative Sheila Jackson Lee, a Member of 
  Congress of the State of Texas, and Member of the Committee on 
  the Judiciary..................................................   238

                                APPENDIX

Article for the record entitled, ``New Hate and Old: The Changing 
  Face of American White Supremacy''.............................   242
Article for the record from Center for American Progress entitled 
  ``Hate and Guns''..............................................   315
A report from the Center on Extremism Murder and Extremism.......   335
Article for the record Facebook & Google Must Take Responsibility 
  for Proliferation of Extremist Content Online..................   402
A report from the Center on Extremism, Murder and Extremism in 
  the United States in 2018......................................   406
Article for the record from POLITICS, What You Need To Know About 
  The Alt-Right Movement.........................................   438
Article for the record from ProPublica, Why America Fails at 
  Gathering Hate Crime Statistics................................   443
Article for the record from ProPublica, New Zealand Massacre 
  Dredges Up Worries at a Traumatized New York Mosque............   453
Article for the record from The Atlantic, Needs to Demilitarize 
  His Rhetoric...................................................   458
Article for the record from The Atlantic, White Nationalism's 
  Deep American Roots............................................   464
Article for the record from The New Yorker, It's Time to Confront 
  the Threat of Right-Wing Terrorism.............................   464
Article for the record from Currant Affairs, The Southern Poverty 
  Law Center is Everything That's Wrong With Liberalism..........   479
Letter to Jerrold Nadler from WISE...............................   497

 
             HATE CRIMES AND THE RISE OF WHITE NATIONALISM

                              ----------                              


                         Tuesday, April 9, 2019

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The Committee met, pursuant to call, at 10:11 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Cicilline, 
Lieu, Raskin, Jayapal, Demings, Correa, Scanlon, Garcia, 
Neguse, McBath, Stanton, Dean, Mucarsel-Powell, Escobar, 
Collins, Sensenbrenner, Chabot, Gohmert, Buck, Biggs, 
McClintock, Reschen-thaler, Armstrong, and Steube.
    Staff Present: Amy Rikir, Chief of Staff; Arya Hariharan, 
Oversight Counsel; David Greengrass, Senior Counsel; John Doty, 
Senior Adviser; Lisette Morton, Director of Policy, Planning, 
and Member Services; Madeline Strasser, Chief Clerk; Moh 
Sharma, Member Services and Outreach Adviser; Susan Jensen, 
Parliamentarian and Senior Counsel; Keenan Keller, Senior 
Counsel; Ben Hernandez, Counsel; Joe Graupensperger, Counsel; 
Milagros Cisneros, Detailee; Rachel Rossi, Counsel; Veronica 
Eligan, Professional Staff Member; Brendan Belair, Minority 
Staff Director; Bobby Parmiter, Minority Deputy Staff Director 
and Chief Counsel; Jon Ferro, Minority Parliamentarian and 
General Counsel; Jason Cervenak, Minority Chief Counsel for 
Crime Subcommittee; Paul Taylor, Minority Chief Counsel for 
Constitution Subcommittee; and Erica Barker, Minority Chief 
Legislative Clerk.
    Chairman Nadler. The Judiciary Committee will come to 
order.
    Without objection, the chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to today's hearing on Hate Crimes and 
the Rise of White Nationalism. I will now recognize myself for 
an opening statement.
    Today, the Judiciary Committee will hold a hearing that I 
wish we did not have to conduct, but which is sadly necessary 
to examine an urgent crisis in our country. We will consider 
issues relating to hate crimes and the rise of White 
nationalism. This topic goes to the heart of our country's 
longstanding struggle to carry out what the Preamble to our 
Constitution says it is designed to do, ``to form a more 
perfect union.''
    Hate incidents target victims based on their actual or 
perceived race, religion, sex, sexual orientation, or other 
immutable characteristics. Some of these incidents may be 
crimes, and some are not. All of them harm not only 
individuals, but also our communities and, ultimately, our 
entire Nation.
    Unfortunately, various statistics confirm what most of us 
have observed, that hate incidents are increasing in the United 
States. Although reporting of hate crimes to the FBI by the 
States is woefully incomplete, what we do know is that these 
statistics have been on the rise in recent years, with hate 
crimes surging 20 percent last year, and the plurality of these 
crimes, 29 percent being motivated by anti-black bias.
    The American public can sense this reality. A poll 
conducted by the Communities against Hate initiative showed 
that 84 percent of individuals believe that hate incidents are 
very or somewhat prevalent in this country, and 66 percent 
believe that such incidents or expressions of hate are growing 
worse.
    This increase has occurred during a disturbing rise of 
White nationalism in our country and across the globe. The 
deadly 2017 Unite the Right White nationalist rally in 
Charlottesville, Virginia, served as a frightening reminder of 
the threat White nationalism and hate groups pose to the United 
States.
    In just the last few years, the ideology of White supremacy 
has inspired terrorist attacks on all of the Abrahamic 
religions. In 2015, nine worshippers were murdered at the 
Emanuel African Methodist Episcopal Church in Charleston. In 
2018, 11 people were killed at the Tree of Life L'Simcha 
synagogue in Pittsburgh. This year, 50 people were slaughtered 
at the Al Noor Mosque and Linwood Islamic Centre in 
Christchurch, New Zealand.
    In each case, the perpetrators were motivated by a belief 
that people perceived to be nonwhite, whether they be African 
Americans, Jews, Muslims, or Members of other minority 
communities, were plotting to undermine the White race as part 
of a ``great replacement,'' the same idea that motivated the 
2011 Norwegian attacks on a workers' youth league summer camp, 
which cost 77 lives, and the attack on a Sikh temple in 
Milwaukee that cost 6 lives.
    In the age of instant communication with worldwide reach, 
White nationalist groups target communities of color and 
religious minorities through social media platforms, some of 
which are well known to all Americans and some of which operate 
in hidden corners of the Web.
    These platforms are utilized as conduits to spread 
vitriolic hate messages into every home and country. Efforts by 
media companies to counter this surge have fallen short, and 
social network platforms continue to be used as ready avenues 
to spread dangerous White nationalist speech. As the New 
Zealand attack showed, some hateful ideological rhetoric that 
originates in the United States is now used to inspire terror 
worldwide.
    Unfortunately, in a time when decisive leadership is 
needed, the President's rhetoric fans the flames with language 
that, whether intentional or not, may motivate and embolden a 
White supremacist movement. We only need to look at the 
perpetrators of violence and hate to see the impact this 
rhetoric has had. For example, the New Zealand shooter declared 
that he supports President Trump ``as a symbol of renewed White 
identity and common purpose.''
    Congress, in recent years, has also failed to take 
seriously the threat that White nationalism and hate crimes 
pose. Last Congress, we did not even hold hearings after the 
Charlottesville Unite the Right rally or after the Tree of Life 
synagogue shooting. Now we see witnesses invited by the 
minority who openly associate with purveyors of hate.
    White nationalism and its proliferation online have real 
consequences Americans have died because of it. I did not call 
this hearing so that some may promote the very messages we need 
to combat. We must together rebuke those who seek to divide us 
through a message of hate.
    Although we will examine the Federal Government's response 
in more detail in the future, I will say now that it appears 
that Federal law enforcement agencies have not taken the deadly 
and increasing dangers posed by White nationalist hate groups 
as seriously as foreign terrorist threats.
    The Center for Investigative Reporting analyzed incidents 
of domestic terrorism occurring from January 2008 to December 
2016. It found that there were nearly twice as many attacks 
perpetrated or attempted by rightwing extremists, 115, compared 
to those identified as Islamist domestic terrorism, 63.
    The report also concluded the rightwing extremist attacks 
were more often deadly, although the total number of deaths 
associated with Islamist incidents was higher, 90. This is 
largely due to the 2009 mass shooting at Fort Hood in Texas, 
which alone resulted in 13 deaths. In fact, only 13 percent of 
Islamist cases caused fatalities. By contract, nearly a third 
of attacks committed by rightwing extremists involved 
fatalities, 79 deaths.
    These figures highlight the risk we face if we ignore the 
threats posed by White nationalist movements. To help us better 
understand the nature of these threats to our communities and 
the ways in which social media has been used to spread hate and 
incite violence, we have a diverse panel of witnesses before us 
today.
    I trust that our frank discussion of these issues will help 
the Committee and the public better understand the challenges 
we face and how we may best respond.
    It is now my pleasure to recognize the Ranking Member of 
the Judiciary Committee, the gentleman from Georgia, Mr. 
Collins, for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman, for the opportunity 
for us to again condemn White nationalism. It is an opportunity 
that is unfortunate, but it is not unimportant in this hearing.
    This ideology lies in an immeasurable, yet equal value of 
every person. We saw those lies take root in the attacker who 
murdered Heather Heyer and injured others in Charlottesville. 
The attacker's medical record shows he was ill. His mind was 
sick, but his heart was sick as well.
    I join every American who denounces hatred and violence 
wholesale. My Republican colleagues unanimously supported the 
resolution rejecting White nationalism and White supremacy this 
January, and we took action when the words of one of our 
colleagues ran counter to our values. American values share 
nothing ideologically with White nationalism.
    Nothing White supremacists claim resonate with any of us 
here today, and I appreciate the chance to consider how to 
combat the violence associated with this terrible ideology.
    Too often, we have seen White nationalism and other notions 
of racial, ethnic, and cultural superiority end in violence, 
both at the individual and national level. Hatred and racial 
superiority continue to play out in Western China, where the 
Uighurs are being detained in re-education camps and killed, 
and it has run rampant in Iraq, where ISIS fighters have 
murdered and enslaved thousands of Yazidis.
    Over and over again, history has warned us racism and hate 
mobilize people for violence and oppression. Why haven't we 
learned these lessons? Why haven't we hewn more closely to the 
ideal that all men are created equal and other bedrock 
principles of our Nation?
    The practical problem is our hearts run quickly to hate. We 
hunt for and embrace any data suggesting we are better than our 
neighbors. Are we more talented? Are we better looking? Are we 
more enlightened? Most importantly, do we have friends who 
agree our ``in group'' is superior to an out group?
    We remember today hate always makes its nest in 
pridefulness. So, when we examine the foundations of White 
supremacy, we realize the primary difference between White 
nationalist violence in America and ethnic cleansing or 
Communist internment camps is scale, not substance.
    I think people with political campaign experience have 
witnessed firsthand how quickly people's hearts become hate 
factories. With that in mind, I hope we will use this hearing 
to pursue softer hearts and intellectual integrity.
    With that, I am glad to have our witnesses here who will 
share their values, just as I am glad to have all the 
Democratic witnesses here to share from their heart. I think 
that is what makes us better people, without distractions of 
the headlines and the banners.
    With that in mind, as we move forward, I worry that the 
true motivation for this hearing is to suggest that Republicans 
are hateful and dishonest and somehow connected to those 
characters who truly spew hatred and Act on it in the public 
square. As we all know, however, House Republicans led the 
chamber's unequivocal rejection of White nationalism.
    To those who say we could have been clearer sooner, I hear 
you. We can't afford to let racial hatred build a home in our 
Nation's capital, which is why it is also so unfortunate the 
rise that has seemingly taken root lately of anti-Semitism in 
this same body.
    When we are holding this hearing, it is interesting to note 
that White nationalism traffics in anti-Semitism. We also know 
that anti-Semitic violence has extinguished countless lives. 
What I don't know is why the tolerance for Jewish stereotypes 
has been spilling over in the Members in this body. Moreover, I 
don't know why it is the majority finds it so hard to condemn 
such hateful language.
    According to the Anti-Defamation League, the anti-Semitic 
violence has increased 57 percent in 2017. So, I hope that my 
friends will use this hearing to outline their plan to condemn 
anti-Semitism along with the cornerstone--which is a 
cornerstone of the White nationalist ideology in this House.
    People of every ethnic and religious background come to 
America because our republic affords them the liberty and 
safety unavailable in many corners of the globe. This country 
is committed to free thought, free expression, free press, and 
a blind justice system, those very things that foster diversity 
and deter intellectual bankrupt ideologies like White 
nationalism.
    When the marketplace of ideas remains wide open, it is easy 
to comparison shop, to identify and reject hollow, hateful 
worldviews. When justice is swift and blind, violence and abuse 
will not pay off. When power is shared among all citizens, 
authorities are less likely to oppress the people they are 
meant to serve.
    In contrast, governments that attempt to restrain people's 
hearts and minds for whatever reason pave the way to oppression 
and political violence. Americans have always understood these 
dynamics. Sadly, identity politics has divided us, and we have 
forgotten our core political identity.
    Americans fundamentally recognize each of us have been 
endowed by our creator with uncertain unalienable rights and is 
individually responsible for their actions. In other words, our 
unity as a Nation depends not on ethnic uniformity, but on our 
equality as citizens. White nationalism denies this, and I sit 
here today rejecting hate and violence of any kind.
    With that, I yield back.
    Chairman Nadler. I thank the gentleman.
    I will now introduce today's witnesses. Eileen Hershenov is 
the senior vice President of policy for the Anti-Defamation 
League. Prior to joining the ADL, she served as general counsel 
and head of public policy for the Wikimedia Foundation. She 
earned her B.A. from Yale College and her J.D. from Yale Law 
School.
    Dr. Mohammad Abu-Salha is a medical professional from North 
Carolina. Before moving to the United States, he worked as a 
general practitioner in Iraq, Kuwait, and Jordan. Dr. Abu-Salha 
attended Eastern Virginia Medical School for a degree in 
psychiatry and his residency.
    Eva Paterson is the President and co-founder of the Equal 
Justice Society. Her long career of anti-discrimination work 
includes 26 years with the Lawyers' Committee for Civil Rights, 
13 of them as executive director; co-founding and chairing the 
California Civil Rights Coalition for 18 years; and serving as 
the vice President of the ACLU National Board for 8 years. She 
received her J.D. from UC Berkeley's School of Law.
    Neil Potts currently serves as the public policy director 
for Facebook, who oversees the development and implementation 
of Facebook's community standards. Mr. Potts graduated from the 
United States Naval Academy and the University of Virginia Law 
School. Prior to joining Facebook, he worked as a ground 
intelligence officer in the U.S. Marine Corps.
    Alexandria Walden is a public policy and government 
relations counsel for Google. She also represents Google at the 
Global Network Initiative. Prior to joining Google, Ms. Walden 
has worked at the Raven Group, the Center for American 
Progress, and the NOW Legal Defense and Education Fund.
    Morton Klein is national President of the Zionist 
Organization of America. He has served as a lecturer at Temple 
University and as a biostatistician at UCLA's School of Public 
Health and the Linus Pauling Institute of Science and Medicine.
    Candace Owens is an American commentator and political 
activist. She currently serves as the director of 
communications for the advocacy group Turning Point USA.
    Kristen Clarke currently serves as the President and 
executive director of the National Lawyers' Committee for Civil 
Rights. Previously, she has worked with the NAACP Legal Defense 
and Education Fund and at the U.S. Department of Justice in the 
Civil Rights Division. She earned her A.B. from Harvard and her 
J.D. from Columbia Law School, which is in my district.
    [Laughter.]
    Chairman Nadler. I have to put that out.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing.
    Now if you would please rise, I will begin by swearing you 
in. Raise your right hand, please.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    [Response.]
    Chairman Nadler. Let the record show the witnesses answered 
in the affirmative. Thank you, and please be seated.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in 5 minutes. To help you 
stay within that time, there is a timing light on your table. 
When the light switches from green to yellow, you will have 1 
minute to conclude your testimony. When the light turns red, it 
signals the 5 minutes have expired.
    Ms. Hershenov, you may begin.

                 TESTIMONY OF EILEEN HERSHENOV

    Ms. Hershenov. Mr. Chairman, Ranking Member Collins, and 
Members of the committee, good morning. I am Eileen Hershenov, 
senior vice President for policy at ADL, the Anti-Defamation 
League.
    Please, let me first say thank you for your leadership in 
recognizing the importance of addressing the increase in hate 
crimes and resurgence of White supremacy. I appreciate the 
opportunity to discuss topics my colleagues and I are focused 
on every day.
    Second, I would like to thank my fellow panelists for their 
perspectives today, especially Dr. Abu-Salha. Thank you for 
bravely sharing the painful story of your daughters' murder. 
Such horrific crimes affect entire communities, but I know they 
affect the families most of all, and I am so sorry for your 
loss.
    Since our founding in 1913, ADL's mission has been to stop 
the defamation of the Jewish people and to secure justice and 
fair treatment for all. ADL is one of the foremost 
nongovernmental authorities on domestic terrorism, extremism, 
hate groups, and hate crimes. For many decades, we have been 
tracking White supremacists and other extremists, and we have 
been developing strategies to address these threats.
    In 1985, we issued a report on how White supremacists 
communicated on dial-up computer bulletin boards, and we have 
been working to combat the spread of hate and extremism online 
ever since, including partnering with the tech industry.
    You have my full testimony, but allow me to highlight a few 
points for you. White supremacists in the United States have 
experienced a resurgence in the past 3 years, driven in large 
part by the rise of the alt-right. There is also a clear 
corollary, as our research shows, to the rise in polarizing and 
hateful rhetoric on the part of candidates and elected leaders.
    This is a particularly dangerous problem. White 
supremacists have been responsible for more than half, 54 
percent, of all domestic extremist-related murders in the past 
10 years. In the last year, that figure has risen to 78 percent 
of all extremist-related murders. That is, White supremacists 
were responsible for more than three-quarters of all domestic 
extremist murders in 2018.
    So, there is a crucial need for this hearing focusing on 
White nationalism not because other types of extremism aren't 
dangerous, but because we as a society, our laws, and our 
elected leaders have not focused sufficiently on the rising 
threat of White supremacy.
    The other driving force for the resurgence of White 
supremacy is the role of social media in enabling this hate to 
spread. Just this morning, ADL issued a new report documenting 
how before carrying out the hateful murders in Pittsburgh and 
New Zealand, the alleged White supremacist gunmen frequented 
fringe social networking sites like Gab and 8chan that Act as 
echo chambers for the most virulent anti-Semitism and racism 
and Act as active recruiting grounds for potential terrorists. 
These platforms are like round-the-clock digital White 
supremacist rallies, creating online communities that amplify 
their vitriolic fantasies.
    As you craft policy responses to these complex challenges, 
we believe they must include revitalizing the Federal 
Government's attention to domestic terrorism and in particular 
rightwing extremist violence, incentivizing State and local law 
enforcement agencies to more comprehensively collect and report 
hate crimes data to the FBI, strengthening laws against 
perpetrators of online hate, helping to ensure that social 
media platforms Act against hate and increase transparency in 
ways they are not now doing, and improving law enforcement 
training for responding to hate online and off. I have 
submitted detailed recommendations for the tech industry, which 
are included in my written testimony.
    Finally, I implore you and all public leaders to 
consistently call out bigotry and extremism at every 
opportunity. We all have a responsibility to make clear that 
America is no place for hate.
    Thank you. I am happy to take any questions the Committee 
may have.
    [The statement of Ms. Hershenov follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Nadler. Thank you.
    Dr. Abu-Salha?

             TESTIMONY OF MOHAMMAD ABU-SALHA, M.D.

    Dr. Abu-Salha. Good morning, Mr. Chairman, esteemed Members 
of Congress, and ladies and gentlemen.
    February 10, 2015, that was the day our lives changed 
forever when my two daughters, Yusor and Razan, and my son-in-
law, Deah, were shot to death, execution style, in Yusor and 
Deah's home in Chapel Hill. When we arrived at the scene, 
yellow tape and flashing lights froze the blood in our veins. 
We had waited almost 6 hours before police officers confirmed 
that Deah, Yusor, and Razan were all been shot to death.
    In a desperate attempt to make it bearable, an officer 
whispered, and I quote, ``They didn't suffer. It was swift. It 
was one shot to the back of the head.'' Well, that statement 
did not make it any more bearable, and nothing did.
    News about their deaths spread all over the Internet and 
media, over the globe, but we never heard in the media that the 
murderer hated them.
    Trouble began when this man observed my two daughters 
appearing on the scene, adorned with their hijabs. I remember 
my Yusor telling me that this condescending man told her he 
hated how she looked and dressed. He made it very clear to my 
children that they were not welcome in their own neighborhood.
    I must be one of the few physicians, if not the only one, 
who read his own children's murder autopsy reports and details. 
They are seared into my memory. Bullets macerated Yusor and 
Razan's brains. Deah took many bullets to the arms and chest 
before he fell down to the ground, and after that, the murderer 
saw that he was still breathing and shot him again in the 
mouth.
    The last time we saw them in their coffins, Yusor's 
forehead was bulging, and her hazel eyes had turned gray and 
lifeless. What was once Razan's warm and smiling face filled 
with life was now lifeless, stone cold, and deadly pale. Deah's 
face lacked expression, and he had a broken tooth from that 
final shot to the mouth.
    Thank you for giving me this opportunity to testify before 
you, but I want you to remember more than their deaths. I want 
you to know who they were and what we have lost.
    Yusor was a vibrant 21-year-old woman who always found ways 
to give to others in every aspect of her life, from 
volunteering at a dental clinic for Syrian refugees in Turkey 
to feeding the homeless in downtown Raleigh and building houses 
for Habitat for Humanity. She graduated from NC State 
University and was accepted at UNC's School of Dentistry to be 
with the love of her life, Deah.
    Razan was 19 years old and was so full of life. She was a 
gentle soul, generous giver, talented artist, a photographer. 
Razan was a freshman at NC State University's School of Design 
and aspired to be an architect. During her freshman year, she 
mentored and taught youth, and she led Project Downtown, 
feeding the homeless in Raleigh and Durham with meals tagged 
with inspirational and personalized notes she wrote.
    My wife and I raised them to be Muslim Americans, proud of 
their country and their community, as Muslim as apple pie--I am 
sorry, as American as apple pie. That can be Muslim, too.
    [Laughter.]
    My son-in-law, Deah Barakat, was a smart and kind young man 
who was studying dentistry at UNC-Chapel Hill. Deah was an avid 
basketball fan, but not of Duke.
    [Laughter.]
    He was so proud of his hometown. Deah was a compassionate, 
caring individual who spent much of his time giving back to 
those in need, including giving free dental supplies to the 
homeless.
    Although Yusor and Deah were only married for 6 weeks, 6 
short weeks before they were murdered, those were the happiest 
days of our lives.
    Ladies and gentlemen, what happened to our children was a 
home invasion and execution. Three beautiful young Americans 
were brutally murdered, and there is no question in our minds 
that this tragedy was born of bigotry and hate.
    This has happened on too many occasions. Families like 
mine, regular Americans living regular lives, are left without 
hope that justice will truly be served. Our families were 
fortunate to have Muslim Advocates and other lawyers supporting 
us every step of the way, but not everyone is so lucky.
    I am afraid for our country. In 2016, the FBI reported a 67 
percent in anti-Muslim hate crimes. And just weeks ago, a young 
man in Indiana was shot in the back of the head by a man 
shouting anti-Muslim slurs.
    We miss our children so much. At times the pain is just as 
sharp now as it was when they died, and I ask you, I truly 
plead to you not to let another American family go through this 
because our Government would not Act to protect all Americans.
    Please remember them--Yusor, Deah, and Razan. They are my 
children, and they are gone.
    I am happy to take questions afterwards.
    [The statement of Dr. Abu-Salha follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Nadler. Thank you very much.
    Ms. Paterson?

                   TESTIMONY OF EVA PATERSON

    Ms. Paterson. I am so sorry.
    Chairman Nadler, Vice Chair Stanton, it is a great honor to 
be at this hearing. I am President of the Equal Justice 
Society. We are an organization that is transforming the 
Nation's--oh, Ranking Member Collins, I didn't see you. Sorry. 
We are transforming the Nation's consciousness on race through 
law, social science, and the arts.
    We often watch these hearings and are really rather 
startled at the rancor that goes on between the parties. So, I 
have a favor to ask of the Democrats and the Republicans here 
today, but first a brief moment of silence for his children and 
all the victims of hate crimes.
    [Moment of silence.]
    For the next 5 minutes, I would like you all to give me the 
benefit of the doubt. I want you to listen as Americans and not 
as partisan enemies. I come in peace, truly.
    Rather than list my credentials, I want to tell you who I 
am. I was born in your State, Representatives Jackson Lee, 
Escobar, Garcia, and Gohmert. I am a Texan from San Antonio, 
Texas. My father was in the Air Force and served in Vietnam.
    I went to desegregated military schools in England, France, 
and Illinois. I am a Christian. I have been a civil rights 
lawyer for 44 years.
    Some of the things I am going to share with you are 
difficult to hear, but they are facts. In August 1619, 400 
years ago, 20 enslaved Africans landed at Jamestown. In order 
to sell, rape, and beat these Africans, White Americans--and I 
know none of you own slaves--had to see us as less than human.
    Thomas Jefferson said the following about me and my 
ancestors, ``They have no tenderness and love. They are 
intellectually inferior. They are physically unattractive.'' 
Thus began a narrative, says law professor Shauna Marshall, 
that Black people were only good for physical labor. We were 
inhuman and violent. This was a narrative necessary in order to 
justify slavery.
    White supremacy has been a feature of the mistreatment of 
Native Americans for years, and it was applied to Africans once 
we arrived here. From the beginning of our country's inception 
through the Constitution, the Founding Fathers knowingly and 
consciously embraced slavery and White supremacy. Politics, 
including the three branches of Government, have played and 
continue to play a role in the perpetuation of White supremacy 
and the continued mistreatment of Black people, either through 
action or inaction.
    In 1857, the Supreme Court in the Dred Scott decision 
reinforced White supremacy by saying Black people have no 
rights that White people need respect. Ultimately, slavery 
ended. The Reconstruction era happened. Black men could vote.
    Then politics reared its ugly head once again. Federal 
troops were withdrawn from the South in order to place 
Rutherford B. Hayes on the--in the presidency, and the reign of 
terror in the South began. Once again, I am a Southerner.
    The Ku Klux Klan came about. They were White supremacists. 
They lynched people. They made sure that Black people could not 
vote. For years, the NAACP asked Congress to Act on anti-
lynching laws. Congress refused to act.
    Fast forward to 1964, our fellow Texan got the Civil Rights 
Act passed, but when it passed, he said we have lost the South 
for a generation, he said, of Democrats. Six years later, the 
Southern strategy was devised to encourage White people to 
abandon the Democratic Party and vote for the GOP. It was a 
shrewd and effective political strategy, but it drove yet 
another wedge between Black and White people.
    Fast forward to 2008, America elects a Black President. 
Unfortunately, this proves very unsettling to many people who 
have felt superior to Black people when there is a Black 
President and a Black family in the White house.
    In 2015, Donald Trump began his campaign by calling 
Mexicans rapists. He called for a Muslim ban. When White 
supremacists marched in Charlottesville chanting, ``Jews will 
not replace us in blood and soil,'' which is straight from the 
Nazi playbook, Mr. Trump said there are good people on both 
sides. He recently called asylum seekers animals.
    Dylann Roof goes into a place of worship and murders Black 
souls. Jews are slaughtered in Pittsburgh. Muslims are 
slaughtered in New Zealand. We need the Congress to stand up 
and act.
    Ranking Member Collins, I was so delighted to hear your 
strong statement against White supremacy and that the 
Republicans took a lead in denouncing it. We need you to do 
more. Out there where I live in California, we are not so sure 
where the Congress stands on White supremacy. So, we are 
delighted that you are speaking up.
    I would also like to address Chief Justice Roberts, who 
dismantled the Voting Rights Act in Shelby v. Holder. He said 
racism had been eradicated. That simply is not true. I hope he 
will talk to Justice--Judge Bernice Donald from the Sixth 
Circuit, who writes extensively on racism.
    We hope that a majority of you will want to give the 
country a signal that we are ``one Nation under God, 
indivisible, with liberty and justice for all.''
    Thank you very much, and I am happy to answer any questions 
at the appropriate time.
    [The statement of Ms. Paterson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Nadler. Thank you. Mr. Potts?

                    TESTIMONY OF NEIL POTTS

    Mr. Potts. Thank you, Chairman. Chairman Nadler, Ranking 
Member Collins, and distinguished Members of this committee, 
thank you for the opportunity to appear before you today.
    My name is Neil Potts, and I am the director Facebook with 
oversight over the development and implementation of Facebook's 
community standards, which are the rules for what types of 
content we allow on the platform. I am a graduate of the United 
States Naval Academy and University of Virginia School of Law, 
and prior to joining Facebook I served as a ground intelligence 
officer in the United States Marine Corps and was deployed in 
support of Operation Iraqi Freedom and Operation Enduring 
Freedom.
    First, let me start by saying that all of us as Facebook 
stand with the victims, their families, and everyone affected 
by the horrific terrorist attack in New Zealand. I would also 
like to express my deepest condolences to the doctor for the 
unimaginable loss that he and his family have suffered. In the 
aftermath of such an awful act, it is more important than ever 
that we stand against hate and violence. I am here to tell you 
today that at Facebook, we continue to make that a priority in 
everything we do.
    Facebook's mission is to give people the power to build 
community and to bring the world closer together. More than 2 
billion people come to our platform every month to connect with 
family, to connect with friends, to find out what is going on 
in their world, to build their businesses, to volunteer, and to 
donate to organizations they care about, and also to help those 
in need. Our users share billions of pictures, stories, and 
videos about their lives and their beliefs every day, and that 
diversity of viewpoints, expression, and experience highlights 
much of what is best about Facebook. As we give people voice, 
we want to make sure that they are not using that voice to hurt 
others. Facebook embraces the responsibility of making sure 
that our tools are used for good, and we take that 
responsibility seriously.
    I would like to be clear. There is no place for terrorism 
or hate on Facebook. We remove any content that incites 
violence, bullies, harasses or threatens others, and that is 
why we have longstanding policies against terrorism and hate, 
and why we have invested so heavily in safety and security in 
the past few years. That investment impacts both our human and 
technological capabilities, and Facebook now employs more than 
30,000 people across the globe for our focus on safety and 
security.
    Those human reviewers and automated technologies work in 
concert to keep violent, hateful, and dangerous content from 
ever reaching our platform in the first instance, and to remove 
it quickly when it manages to get by our first line of defense. 
We have protocols in place to pass on threats of imminent 
violence and imminent danger to law enforcement as soon as we 
become aware of them. Of course they can take many forms beyond 
over terrorism, and none of it is permitted on our platform.
    Facebook rejects all hateful ideologies. Our rules have 
always been clear that White supremacists are not allowed on 
the platform under any circumstance. In fact, we have banned 
more than 200 White supremacist organizations under our 
dangerous organizations policy, and last month we extended that 
policy to include a ban on all praise, support, and 
representation of White nationalism and White separation. We 
see these ideologies as being inextricably linked to supremacy 
with intents of violence more generally.
    Our policies banning praise, support, and representation of 
White nationalism and White separatism are not intended to 
prevent those kinds of discussions about pride or having 
discussions about the country that we love, nor the intent to 
stifle discussion about the harms that these groups cause. To 
be clear, they are intended to stop hateful and dangerous 
content from being shared on our platform in the part of our 
community. Additionally, we will be connecting people who 
search for terms associated with White supremacy, White 
nationalism, and White separatism to Life After Hate. That is 
an organization founded by former violent extremists that 
provides support and outreach.
    Now, determining what should and should not be removed from 
our site isn't always simple given the amount of content that 
we have on our platform. We know we don't and we won't always 
get it right, but we have improved significantly and we 
continue to improve as we diligently ensure that our platform 
remains a safe, welcoming place for the global community. We 
want Facebook to be a place where individuals where diverse 
viewpoints can connect and exchange ideas, but they must feel 
safe to do that.
    Fostering a sense of safety is imperative, not just because 
of how it affects our community online, but because of how it 
affects the world offline. There is a lot more to do, but we 
are proud of the significant progress we have made in the last 
few years. Still we know people have questions, and I 
appreciate the opportunity to be here today.
    [The statement of Mr. Potts follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Nadler. Thank you. Ms. Walden?

                 TESTIMONY OF ALEXANDRIA WALDEN

    Ms. Walden. Chairman Nadler, Ranking Member Collins, 
Members of the committee, thank you for the opportunity to 
appear before you today. I appreciate your leadership on the 
important issues of hate speech and free expression online and 
welcome the opportunity to discuss Google's work in these 
areas. My name is Alexandria Walden, and I serve as the global 
policy lead for human rights and free expression for Google. In 
my work, I advise the company on how we can preserve our deep 
commitment to free expression and access to information in a 
complicated global environment.
    Broadly, the internet has been a force for creativity, 
learning, and access to information. At Google, supporting this 
free flow of ideas is core to our mission to organize and make 
the world's information universally accessible and useful. This 
openness has democratized how stories and whose stories get 
told. It has created a space for communities to tell their own 
stories, and it has created a platform where anyone can be a 
creator and can succeed.
    Around 2 billion people come to YouTube every month, and we 
see over 500 hours of video uploaded every minute, making it 
one of the largest living collections of human culture ever 
assembled in one place. We know, however, that the very 
platforms that have enabled these societal benefits may also be 
abused, ranging from the annoying, like spam, to the criminal, 
like child pornography. This is why, in addition to being 
guided by local law, we have community guidelines that our 
users must follow.
    Before I begin on how we enforce our policies, I want to 
State clearly that every Google product that hosts user content 
prohibits incitement to violence and hate speech against 
individuals or groups based on specified attributes. We view 
both as grave social ills, so our policies go beyond what the 
U.S. requires. We are deeply troubled by the recent increase in 
hate and violence in the world, particularly the acts of 
terrorism and violent extremism in New Zealand. We take these 
issues seriously and want to be part of the solution.
    We understand that tough policies must be coupled with 
tough enforcement. Over the past 2 years, we have invested 
heavily in machines and people to quickly identify and remove 
content that violates our policies against incitement to 
violence and hate speech. I would like to briefly outline how 
these processes work at YouTube.
    First, YouTube's enforcement system starts from the point 
at which a user uploads a video. If it is somewhat similar to 
videos that already violate our policies, it is sent to humans 
for review. If they determine that it violates our policies, 
they remove it and the system makes a digital fingerprint so 
that it cannot be uploaded again. In the 4th quarter of 2018, 
over 70 percent of the more than 8 million videos reviewed and 
removed were first flagged by a machine, the majority of which 
were removed before a single view was received.
    Second, we rely on experts to find videos the algorithm 
might be missing. Some of these experts sit at our in-house 
intel desk, which proactively looks for new trends and content 
that may violate our policies. We also allow expert NGOs and 
governments to notify us of bad content in bulk through our 
trusted flagger program. We reserve the final decision on 
whether to remove a video that gets flagged by any of these 
entities, but we benefit immensely from their expertise.
    Finally, we go beyond enforcing our policies by creating 
programs to promote counter speech. Examples of this work 
include our Creators for Change Program, which supports YouTube 
creators who are tackling issues like extremism and hate by 
building empathy and acting as positive role models. In 
addition, Google's Jigsaw Group has developed the Redirect 
Method, which uses targeted ads and YouTube videos to disrupt 
online radicalization.
    It is important to note that hate speech removals can be 
particularly complex compared to other types of content. Hate 
speech, because it often relies on spoken, rather than visual, 
cues is sometimes harder to detect than some forms of branded 
terrorist propaganda. It is intensely context specific, and it 
can be contentious as there is often disagreement on what could 
be considered political speech.
    On the opposite end, over-aggressive enforcement can also 
inadvertently silence voices that are using the platform to 
make themselves heard on these important issues. Often in this 
speech, we have found that content can sit in a gray area that 
comes right up against the line. It may be offensive, but it 
does not violate YouTube's policies against incitement to 
violence and hate speech. When this occurs, we have built a 
policy to drastically reduce the video's visibility by making 
it ineligible for ads, removing its comments, and excluding it 
from our recommendation system.
    In particular, we understand the issues around YouTube's 
recommendation system may be top of mind. This is why several 
months ago we also updated our recommendations systems to begin 
reducing recommendations of even more borderline content or 
content that can misinform users in harmful ways.
    In conclusion, I would like to end where I began. Google 
builds its products for all users from all political stripes 
around the globe. The long-term success of our business is 
directly related to our ability to earn and maintain the trust 
of our users. We have a natural and long-term incentive to make 
sure that our products work for users of all viewpoints. People 
will value these services only as long as they continue to 
trust them to work well and provide them with the most relevant 
and useful information. That is why hate speech and violent 
extremism have no place on YouTube. We believe we have 
developed a responsible approach to address the evolving and 
complex issues that manifest on our platform.
    Thank you for the opportunity to outline our efforts in 
this space, and I am happy to answer any questions.
    [The statement of Ms. Walden follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Nadler. Thank you. Mr. Klein?

                  TESTIMONY OF MORTON A. KLEIN

    Mr. Klein. Thank you, Chairman Nadler, Ranking Member 
Collins, Members of the committee. First of all, I must say I 
have Tourette's syndrome. Sometimes I have tics and make sounds 
I can't control, so please forgive me.
    For the past 25 years, I have served as President of the 
oldest pro-Israel organization, the Zionist Organization of 
America. We promote strong U.S.-Israel relations and work to 
protect American Jews and others from antisemitism and 
violence. As a child of Holocaust survivors, I personally felt 
the horrors of unbridled antisemitism. I was born in the DP 
camp in Germany, grew up without the loving presence of most of 
my grandparents, aunts, uncles, cousin, whom the Nazis 
murdered.
    A front-page article in the New York Times Friday 
headlines, ``Biases Shared by Extremes of the Right, Left, and 
Islam.'' We should keep that in mind. The Tree of Life 
Synagogue murderer was a neo-Nazi who hated White President 
Trump for not being an antisemitic, called Jews in the Trump 
Administration a ``kike infestation.'' The New Zealand mosque 
murderer was actually a left-wing self-described eco-fascist 
who also published a manifesto praising communist China as the 
``nation with the closest political and social values to my 
own.''
    Most of us correctly treat neo-Nazis and White supremacists 
as horrifying. History reminds us that we cannot write neo-
Nazis off as a marginal phenomenon. There is a plethora of 
sickening neo-Nazi, White supremacist internet sites fomenting 
hatred and violence primarily against Jews and blacks, but also 
against LGBTQ, women, feminists, and Muslims. We need to 
determine who is funding and is behind this.
    The FBI reports that Jews are the victims of 60 percent of 
the religious-motivated hate crimes in America. Jew hatred is 
the canary in the coal mine. It is unfortunately incumbent upon 
us to speak about the major issue threatening violence against 
Jews and all Americans, which is Muslim antisemitism, which is 
strengthened by significant institutional support and the 
support of imams and is becoming mainstream.
    Let us look at college campuses. During the decades that 
ZOA has been combatting campus antisemitism, we have never 
received a single complaint about antisemitic discrimination, 
harassment, or intimidation perpetrated by neo-Nazis or White 
supremacists. By contrast, we receive hundreds of calls from 
students about antisemitic harassment, discrimination, and 
intimidation perpetrated by the left-wing, significantly the 
Muslim hate group, Students for Justice and Palestine, SJP, and 
its allies.
    [Disturbance in hearing room.]
    Mr. Klein. COA's letter to city--
    Chairman Nadler. There will be no disruptions.
    Mr. Klein. In ZOA's letter to City University, we have 
documented that at these SJP's rallies, it is common for SJP 
demonstrators calling for Israel's elimination, screaming 
``Jews out of their campuses.'' ``Jews are racist sons of 
bitches.'' Forgive me. ``When we take control of this campus, 
we are going to kick you out and make sure you don't 
graduate.'' ``Get out of America.'' ``Long live the intifada.''
    Last week at Columbia University, the antisemitic hate 
group, SJP, distributed a flyer for its apartheid week with a 
caricature of a Jew that looks like it came from the Nazi's 
propagandist tabloid, Der Sturmer. The Amcha Initiative data of 
almost 2,600 incidents confirms SJP and its allies are the 
perpetrators in most incidents on U.S. campuses.
    Unfortunately, the abhorrent incidents perpetrated by 
Muslim and leftist campus groups are rarely satisfactorily 
resolved. Let's look at the statutes. ADL's worldwide survey of 
100 countries found that 49 percent of Muslims harbor 
antisemitic attitudes. This is a chart of that. You see the 
non-Muslims, it is far less. This is a painful fact that ADL 
has studied. It is more than double the antisemitism found 
among persons of other faiths.
    ADL data also shows in the U.S., 34 percent of Muslims, 
according to ADL, exhibit a high degree of antisemitism versus 
14 percent of the general population. The 16 countries and the 
territories having the highest level of antisemitism were all 
in the Muslim Middle East. Levels of antisemitism there ranged 
from 74 to 93 percent. In a recent conference on antisemitism, 
a speaker said, ``20 years ago the major problem was 
antisemitism of the far right, but it flipped. Now it is the 
left and radical Muslims. We are in danger of seeing it spread 
to the Middle East and to Europe.''
    The danger and problem is there is institutional support 
for violence by leading imams. Al-Azhar University, which is 
the West Point of Islamic academia, trains imams who fan out 
all over the world. A highly-influential treatise by the former 
grand mufti, Tantawi, said, ``Gentle persuasion could do no 
good with Jews, so use force with them. Treat them in the way 
you see as effective in ridding of their evil.'' At Al Azhar 
Friday sermons, they recited hadith saying, ``We have to commit 
genocide against the Jews in order in the messianic day of 
judgment.''
    During the past year and a half in mosques in North 
Carolina, New Jersey, California, Texas, and Pennsylvania, 
imams have made the same speeches about genocide against the 
Jews. Can you imagine if rabbis were called to murder 
Christians or priests were called to murder Muslims? We have 
demanded they should be fired. They weren't.
    Ayaan Hirsi Ali, a well-known Somali, former Muslim, said, 
``I confess that if you are Jewish, I want to apologize to you. 
When my half-sister showed me holy Koranic verses to support 
her hatred of Jews, I feared arguing with Allah for Allah would 
burn me. I also hated Jews. I am ashamed of my prejudice 
against you in the past.'' As Egyptian President El-Sisi said 
in his speech at Al Azhar University, ``We need a religious 
revolution. You imams are responsible before Allah. The entire 
world is waiting.''
    Let's speak frankly. If we want to stop hate and stop 
institutions from supporting and condoning it--I don't know 
much time I have--
    Chairman Nadler. You are 48 seconds over.
    Mr. Klein. Well, but I was stopped. I was stopped with the 
outburst. The outburst.
    Chairman Nadler. Go ahead for another 30 seconds.
    Mr. Klein. I have something very, very important to say. 
Especially as a child of Holocaust survivors, I was horrified 
to see Speaker Pelosi and Leader Hoyer defend Represent Omar 
after her vicious antisemitic remarks and presidential--
    [The statement of Mr. Klein follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Nadler. Okay. The gentleman's time has expired. 
Ms. Owens?
    Mr. Klein. That was unfair.
    Chairman Nadler. It was not unfair. You had plenty of extra 
time. Ms. Owens?
    Mr. Klein. No, I did not.
    Chairman Nadler. Ms. Owens?

                   TESTIMONY OF CANDACE OWENS

    Ms. Owens. Mr. Chairman, Ranking Member, Mr. Collins, thank 
you for having me here today. I received word on my way in that 
many of the journalists were confused as to why I was invited, 
and none of them knew that I, myself, was the victim of a hate 
crime when I was in high school. That is something that very 
few people know about me because the media and the journalists 
on the left were not interested in telling the truth about me 
because I don't fit the stereotype of what they like to see in 
Black people. I am a Democrat. I support the President of the 
United States, and I advocate for things that are actually 
affecting the Black community.
    I am honored to be here today in front of you all because 
the person sitting behind me is my 75-year-old grandfather. I 
have always considered myself to be my grandfather's child, and 
I mean to say that my sense of humor, my passion, and my work 
ethic all comes from the man that is sitting behind me.
    My grandfather grew up on a sharecropping farm in the 
segregated South. He grew up in America where words like 
``racism'' and ``white nationalism'' held real meaning under 
the Democratic Party's Jim Crow laws. My grandfather's first 
job was given to him at the age of 5 years old, and his job was 
to lay tobacco out to dry in an attic in the South. My 
grandfather has picked cotton, and he has also had experiences 
with a Democrat terrorist organization of that time, the Ku 
Klux Klan. They would regularly visit his home and they would 
shoot bullets into it. They had an issue with his father, my 
great grandfather.
    During my formative years, I had the privilege of growing 
up in my grandfather's home. It is going to shock the 
committee, but not once, not in a single breath of a 
conversation did my grandfather tell me that I could not do 
something because of my skin color. Not once did my grandfather 
hold a gripe against the White man. I was simply never taught 
to view myself as a victim because of my heritage.
    I learned about faith in God, family, and hard work. Those 
were the only lessons of my childhood. There isn't a single 
adult today that in good conscience would make the argument 
that America is a more racist or a more White nationalist 
society than it was when my grandfather was growing up, and yet 
we are hearing these terms sent around today because what they 
want to say is that brown people need to be scared, which seems 
to be the narrative that we hear every 4 years right ahead of a 
presidential election.
    Here are some things we never hear. Seventy-five percent of 
the Black boys in California don't meet State reading 
standards. In inner cities like Baltimore, within five high 
schools and one middle school, not a single student was found 
to be proficient in math or reading in 2016. The single 
motherhood rate in the Black community, which was at 23 percent 
in the 1960s when my grandfather was coming up, is at a 
staggering 74 percent today. I am guessing there will be no 
Committee hearings about that. There are more Black babies 
aborted than born alive in cities like New York, and you have 
Democrat governor, Andrew Cuomo, lighting up buildings to 
celebrate late-term abortions. I could go on and on. My point 
is that White nationalism does not do any of those things that 
I just brought up. Democrat policies did.
    Let me be clear. The hearing today is not about White 
nationalism or hate crimes. It is about fear mongering, power, 
and control. It is a preview of a Democrat 2020 election 
strategy, the same as the Democrat 2016 election strategy. They 
blame Facebook. They blame Google. They blame Twitter. Really 
they blame the birth of social media, which has disrupted their 
monopoly on minds. They called this hearing because they 
believe that if it wasn't for social media, voices like mine 
would never exist, that my movement, Blexit, which is inspiring 
Black Americans to leave the Democratic Party, would have never 
come about. And they certainly believe that Donald Trump would 
not be in office today, looking for the next thing to focus on 
now that the Russian collusion hoax has fallen apart.
    What they won't tell you about the statistics and the rise 
of White nationalism is that they have simply changed the data 
set points by widening the definition of hate crimes and upping 
the number of reporting agencies that are able to report on 
them. What I mean to say is that they are manipulating 
statistics. The goal here is to scare blacks, Hispanics, gays, 
and Muslims into helping them censor dissenting opinions, 
ultimately into helping them regain control of our country's 
narrative, which they feel that they lost. They feel that 
President Donald Trump should not have beat Hillary.
    If they actually were concerned about White nationalism, 
they would be holding hearings on Antifa, a far-left violent 
White gang who determined one day in Philadelphia in August 
that I, a Black woman, was not fit to sit in a restaurant. They 
chased me out. They yelled ``race traitor'' to a group of Black 
and Hispanic police officers who formed a line to protect me 
from their ongoing assaults. They threw water at me. They threw 
eggs at me. The leftist media remained silent on it.
    If they were serious about the rise of hate crimes, they 
may perhaps be examining themselves and the hate they have 
drummed up in this country. Bottom line is that White 
supremacy, racism, White nationalism, words that once held real 
meaning, have now become nothing more than election strategies. 
Every 4 years the Black community is offered handouts and fear. 
Handouts and fear. Reparations and White nationalism, this is 
the Democrat preview.
    Of course, society is not perfect, but as we have heard 
testimony about today, there are pockets of evil that exist, 
and those things are horrible and they should be condemned. I 
believe the legacy and the ancestry of Black Americans is being 
insulted every single day. I will not pretend to be a victim in 
this country. I know that makes many people on the left 
uncomfortable. I want to talk about real issues in Black 
America. I want to talk about real issues in this country and 
real concerns.
    The biggest scandal--this is my last sentence--in American 
politics is that Democrats have been conning minorities into 
the belief that we are perpetual victims, all but ensuring our 
failure. Racial division and class warfare are central to the 
Democrat Party platform. They need blacks to hate whites, the 
rich to hate the poor, and soon enough it will be the tall 
hating the short.

    Chairman Nadler. The time of the witness has expired.
    Ms. Clarke?

                  TESTIMONY OF KRISTEN CLARKE

    Ms. Clarke. Chairman Nadler, Ranking Member Collins, and 
Members of the committee, my name is Kristen Clarke. I am 
President and executive director of the Lawyers Committee for 
Civil Rights Under Law. Thank you for the opportunity to 
testify during this critical hearing, which is about real 
issues that are truly a life and death matter for far too many.
    The Lawyers Committee is a national civil rights and racial 
justice organization created at the request of President John 
F. Kennedy in 1963, and for over 55 years we have stood on the 
front lines of the fight for justice. We lead one of the most 
robust anti-hate and anti-extremism projects in the Nation. 
From connecting real survivors on our (844) 9-NO-HATE hotline, 
to training law enforcement and prosecutors, pushing reform in 
the tech sector, and using the courts to hold violent White 
supremacists accountable, we work to confront hate every day.
    We know that hate crimes are not new, and we carry out this 
work with sensitivity to our Nation's dark and sordid history 
of racial violence. African-Americans, in particular, have 
experienced generations of racial terror. Between 1882 and 
1968, there were over 4,700 lynchings in the U.S., and the 
majority of the victims were black. And since the FBI began 
publishing data on hate crimes in 1995, African-Americans 
remain the single group most frequently targeted for hate.
    How are we fighting back? We successfully disrupted online 
platforms that promote hate and racial violence, shutting down 
and obstructing some of the largest hate fights online. We 
advocated for Facebook to abandon its ill-conceived policy 
under which they banned White supremacist activity, but 
permitted White nationalist and White separatist activity 
because we know these racist ideologies are indistinguishable 
and equally dangerous.
    We are working with and pushing the tech sector to reform 
their policies to ensure that they are not providing a breeding 
ground for violent White supremacists, and we have partnered 
with the International Association of Chiefs of Police to 
strengthen law enforcement's response to hate as well. We are 
also holding White supremacists accountable through the courts.
    Last year we filed suit on behalf of a young African-
American woman elected to serve as student President on her 
campus at American University. Following her election, she was 
subject to racist trolling. She was doxed with all of her 
personal information published online. Bananas and nooses were 
hung on campus, including messages describing her as a gorilla. 
We secured a strong settlement last December with one of the 
defendants.
    We can't do this work alone. We need our government to do 
its part, but today's national climate only fuels the fire. 
From the use of a racist expletive to describe African and 
Caribbean nations and much more, this Administration's policies 
and rhetoric promotes animus against Black and brown 
communities. We also seen an FBI diverting resources to 
investigate so-called Black identity extremism, all at the 
expense of combatting real hate.
    Thus, it is not surprising that we are seeing an increase 
in reported hate crimes today. Corrosive White supremacist 
movements are tearing away at the fabric of our Nation. And 
without question, they are using online platforms to recruit 
new Members, activate followers, target communities, organize 
rallies, stream their murders, and incite violence. Instead of 
hiding under hoods, they now organize behind computer screens. 
They have sought to rebrand themselves, employing new labels to 
try and become more palatable to broader audiences. Regardless 
of what you call them--the AltRight, neo-Nazis, the KKK, Proud 
Boys--all pose the same threat today.
    What must we do now? As we continue to use aggressive 
lawyering strategies to move towards a society that is true to 
its Democratic ideals, we call on communities to help tear down 
the structures that facilitate violent White supremacy in our 
country. The banks that facilitate commercial transactions, the 
tech companies that provide open platforms, the web hosts that 
prop up these sites, are all part of an infrastructure that 
feeds hate, that must be dismantled.
    Congress must study and consider new laws for online 
threats, and the Federal government must abandon policies that 
fuel hate. At the Lawyers' Committee, we are inspired by the 
strength and courage of survivors and will continue to fight 
for a world in which no one is forced to endure such 
immeasurable pain. Thank you.
    [The statement of Ms. Clarke follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Nadler. Thank you.
    I will begin the questioning by yielding myself five 
minutes.
    Ms. Hershenov, are we or anybody else manipulating 
statistics to increase the apparent prevalence of White 
nationalist hate crimes, as was stated by one of the witnesses?
    Ms. Hershenov. No, Mr. Chairman. The ADL is data driven and 
we have defined, and in the report submitted to you, we go 
through the details of right-wing extremism.
    Right-wing extremism last year was responsible for all but 
one of the 50 domestic extremist murders. We have submitted 
details about that. So, that is 98 percent--78 percent are 
White supremacy.
    One of the witnesses talked about the global attitudes that 
we look at. That is nonviolent, looking at attitudes, and the 
ADL does track that. We feel it is incumbent--vulnerable 
marginalized communities have bigotry within them. It is 
incumbent first for the Members of those communities to call it 
out.
    There are Members of the Jewish Committee that are bigoted 
that might--or that are Islamophobic and my community needs to 
call that out just as other communities need to.
    We, again, are data driven. If you look at the trends, we 
have the FBI with 17 percent increase in hate crimes overall. 
We have the third largest--the third highest year last year of 
Muslim--anti-Muslim hate crimes.
    We have, as Ms. Paterson and others said, a huge increase 
in race crimes and incidents. So, this is the data that is 
there and the report that we released today shows that there 
was an increase, a doubling--100 percent doubling of anti-
Semitic slurs and content on the channels that the murder, 
Bowers, in Pittsburgh and the murderer in New Zealand looked 
at, and Gavin H. Tran and a huge increase in racism since the 
2016 election.
    I am not saying that anybody--one person, one elected 
official--caused that. There are corollaries there that we need 
to understand and we need to look at. We need to look at the 
data.
    Chairman Nadler. Thank you.
    Ms. Clarke, White supremacist violence is on the rise. A 
2017 report by the Government Accountability Office found hat 
violence from the far right has actually accounted for 73 
percent of deadly attacks since 9/11.
    Last week, the FBI urged that White supremacy is a, quote, 
``persistent and pervasive threat,'' unquote. Yet, the 
Administration's response has been to rescind grants and ask 
Congress to eliminate DOJ's community relations service 
dedicated toward hate crimes and which is dedicated toward 
preventing hate crimes and combating racial tensions, and DOJ 
has prosecuted hate crimes at a 20 percent decrease, despite 
acknowledging the rise in such crimes.
    What is your organization doing to ensure that there is an 
appropriate enforcement against these types of hate crimes?
    Ms. Clarke. I was a former federal prosecutor in the 
Justice Department's Civil Rights Division, prosecuting hate 
crimes, and I know that this Justice Department has unique 
tools in its arsenal and the expertise to do more to combat 
hate crimes.
    They should be stepping in and providing support to local 
law enforcement around the country when these hate incidents 
happen. There are churches burning in Louisiana.
    We need the government to step up and do more. We also need 
the FBI to do a better job incentivizing local law enforcement 
agencies to turn over the data so we can capture the hot spots 
where hate crimes are happening around the country.
    Then, finally, we need to see this Justice Department using 
its bully pulpit more often to condemn hate when it happens.
    As a civil rights organization, we are deeply disturbed by 
the Justice Department and this attorney general and prior AGs 
prior to him. We are disturbed by their deafening silence in 
the fake of hate incidents that we have seen across the 
country.
    We are going to continue to bring pressure to bear to 
ensure that they do more and encourage Congress to use its 
oversight authority here as well.
    The final thing that I will note is that we are deeply 
concerned about the FBI's Black identity extremist designation. 
This is mere distraction from the very real threat of White 
supremacy that we face today.
    Chairman Nadler. Why is that a distraction? Why is that a 
distraction?
    Ms. Clarke. Because, it is not real. It is not a real 
threat. It hearkens back to the dark days of our Federal 
Government abusing its power to go after civil rights activists 
during the heyday of the civil rights movement. There is no 
such thing as Black identity extremism. Again, this is mere 
distraction to take the public's attention and the government's 
resources away from White supremacy and White nationalism, 
which are the real threats that we are up against today.
    Chairman Nadler. Thank you very much. My time has expired.
    The gentleman from Georgia, Mr. Collins?
    Mr. Collins. Thank you, Mr. Chairman.
    Mr. Potts, I have a--just curious, where were you in Iraq?
    Mr. Potts. Ranking Member, I was with General Mattis in the 
invasion of Iraq, so up through Safwan to al-Nasiriyah, up 
through Baghdad. We were retrograded out and I pulled back to 
go to law school.
    Mr. Collins. That is a good idea. I was in Balad. So, I was 
just curious. We have traveled some of the same sands.
    Mr. Potts. Right.
    Mr. Collins. I want to go into this and I think there were 
some interesting points made by all. One of the biggest 
distractions that we get is going back to what I said 
originally.
    Anybody who traffics in hate is bad and wrong. It needs to 
be called out. It needs to stop. I don't care what side you are 
on--left, right, or in the middle--and get back to the issues 
that we are dealing with every day, and much of this has to do 
with the fact that there is a desire for publicity. There is 
the 15 minutes of fame issue here of those who are evil enough 
to go and do this.
    One of the things we just saw recently was the live stream 
of some of this now as the technology has progressed. This is 
something I am curious about here, because in your written 
testimony, you talk about, the viral videos and the ability to 
recognize spliced or edited content and other things like that.
    Where are we heading to cut this off earlier with AI is 
important, but also there is a human element to this as well, 
which also leads into other issues not in this hearing that I 
am sure will come up at other hearings.
    I just want to say more on that issue right now.
    Mr. Potts. Thank you, Ranking Member. That is a great 
question.
    As we try to combat any type of hate, whether it is 
terrorism, hate organizations, even hate speech, to some level, 
we really try to combat that through a three-pronged approach. 
We look at--those three prongs would be the product, our 
people, and in our partnerships.
    First, on the product, that is the AI. We have made 
significant investments in artificial intelligence to try to 
detect this--detect this type of content before it is seen, 
before it is reported so that we can Act more swiftly to remove 
it.
    We have made some significant progress. There is still a 
lot of them to go. The investment over the next few years, 
going forward, I think we can still see great gains to be made.
    Second, is the people, and at Facebook we have over 30,000 
people now focused on safety and security. That is subject 
matter experts. We have former prosecutors, former law 
enforcement officers, former intelligence officers like 
myself--a ground intelligence officer--others that write the 
policies and that help with the process. We have content 
moderators that focus on this and build out those processes 
and, of course, the engineers that write the code for the AI.
    Then the third prong, and a very important prong, is the 
work that we do with our partnerships. We work throughout 
industry. I work with our colleagues at Google, Microsoft, 
elsewhere, on things like the Global Internet Forum for 
Counterterrorism.
    When we are able to share--Ms. Walden spoke of hash sharing 
and digital fingerprints--when we are able to share videos that 
are violating across the industry we are able to Act more 
quickly.
    We also work with many of our external civil society NGOs 
and academics to get ahead of trends--of course, working with 
the government as well.
    Mr. Collins. I appreciate that, and I think one of the 
concerns that we come into and especially when you get into--
and you said hate speech, other things--what is the definition 
of hate speech in regards to the person or the actual human 
actually translating. For some, that might be someone who is 
pro-life may be hate speech to someone who is pro--and we have 
got--there are some issues there. When we come to this 
nationalism this is an issue that we are addressing.
    I do want to go back to Ms. Owens for a second. You made a 
statement at the very beginning on why you are here and I think 
the victim of--you have heard your story and there has been--
you have told that story many times. If you would share how 
that has affected your view, as you go forward, and the issues 
that you are wanting to address today.
    Ms. Owens. Certainly.
    So, when I was speaking about different classifications of 
hate crimes, which actually has increased and, obviously, 
impacts statistics, when I was in high school I received a slew 
of messages from the Democrat governor of Connecticut's son, 
Mr. Daniel Malloy, and at the time he was the mayor of Stanford 
and his son, along with three other boys, referred to me as the 
N word, threatened to tar and feather my family and put a 
bullet in the back of my head like ``they'' did to Martin 
Luther King.
    This is a story that is not often spoken about because the 
media has no interest in telling the truth about how it has 
formed my views towards conservatism.
    The media turned it into a firestorm and it became a 
political tool for people to gain power. The NAACP used me at 
that time, which was to meet me outside of the school with 
cameras in tow to speak out against the crimes.
    Of course, now I am older and I realized that this is 
really just a fundraising mechanism and that a lot of these 
groups survive because they cannot have the problem fixed, 
ever.
    The NAACP never wants racism to go away. Bottom line, all I 
was looking for at that time was an apology. The youngest 
person in that car was 14 years old, and I understand that 
human beings can make mistakes and do stupid things.
    We are not in a society anymore when an apology is good 
enough and we are obsessed with labels. We are obsessed with 
labeling people as racists, as they did to those young boys, 
and it simultaneously impacted me as a victim. It is not fun to 
be a victim and I am adamantly against victimhood and I speak 
out to the Black community about it ultimately harms us.
    Mr. Collins. I appreciate it for sharing that and I think 
as we go forward, as I started my testimony with this, all of 
us here need to be heard. This is exactly what we are 
advocating. The more we hear, the more we can then always 
relate to those who we may disagree or agree with, and I thank 
you for being a part of this and the rest.
    With that, I yield back.
    Chairman Nadler. The gentlelady from Texas, Ms. Jackson 
Lee?
    Ms. Jackson Lee. Chairman and Ranking Member, let me thank 
you so very much for this hearing. Let me acknowledge each and 
every one of the witnesses. Your viewpoints are crucial to us. 
We are fact finders with our own personal emotions. But, we are 
grateful for your testimony.
    I want to--my time is short so forgive me if I pointedly 
ask for abbreviated answers. Let me say that coming from Texas, 
I must take note of James Byrd, which, as a member of the 
United States Congress and this committee, provoked and 
generated the original hate crimes that was passed in the 1990s 
or early 2000s.
    James Byrd was dragged through the streets of Jasper, 
Texas, decapitated--an African-American male minding his own 
business in the late evening. I think he was found by either 
two or three White males.
    That was almost 20 years ago. I give to his family my 
deepest sympathy as well as I give to our courageous witness 
who has come to speak of his children and a horrific crime.
    So, today I want to say that I abhor racism and the 
stereotypes of African Americans. I abhor anti-Semitism. I 
abhor anti-Muslim views, anti-immigrant views, anti-LGBTQ 
views, anti-Asian and Latino, and any other hatred, religion or 
otherwise, that plagues this nation.
    Let me ask the representative from the ADL, first of all. 
Is hatred or is racism a reality?
    Ms. Hershenov. Absolutely, Congresswoman.
    Ms. Jackson Lee. Is the major target of White nationalists 
African Americans?
    Ms. Hershenov. Yes. The core ideology of White 
nationalists, which is a euphemism for White supremacists--
there are different types but the core ideology is the belief 
in the imminent extinction of the White race because of a flood 
of nonwhite people and other people that they feel are 
degenerate, all orchestrated, puppeteered, by Jews. You see 
that with Bowers.
    Ms. Jackson Lee. May I continue with Mr. Abu-Salha and, 
again, let me prayerfully offer sympathy for that unspeakable 
tragedy.
    My brief question to you, simply to your family, is did you 
teach your children, your daughters, hatred?
    Dr. Abu-Salha. Absolutely not, Congresswoman. I actually 
taught my children our faith on every Sunday afternoon for 
three years and a half, and that is why they were all loving 
and caring and they were cooking and distributing food downtown 
to non-Muslim people.
    I also sit on the board of my mosque and we definitely make 
sure that anybody who is racist or hateful is out.
    Ms. Jackson Lee. So, by the very fact of being Muslim, you 
are not anti--you are not filling children or those in the 
mosque with hatefulness?
    Dr. Abu-Salha. Absolutely. We fight this, actually.
    Ms. Jackson Lee. Ms. Paterson, let me just briefly--thank 
you, sir, and forgive me for my time. Let me just thank you. 
You had a very provocative opening. There was some reference to 
reparations.
    I have introduced H.R. 40, which I take very seriously, a 
commission to study the heinousness of slavery. But, you 
mentioned--if you would just very quickly just say it again--
Mr. Thomas Jefferson's assessment of slaves. Could you just say 
that again, for the record?
    Ms. Paterson. Intellectually inferior. We are unattractive 
physically, and let me find the last horrible thing he said--
there is no tenderness in our love.
    We know what Thomas Jefferson was doing on the side. So, 
these statements are a little strange.
    Ms. Jackson Lee. Do you think those themes have carried 
forward into the centuries?
    Ms. Paterson. Oh, absolutely. There are many people who 
really hate us. My organization has a weekly newsletter called 
``This Week in White Supremacy'' and every week we have 40 
different items of people saying hateful things, saying we are 
monkeys. It is pretty bad. Not everybody, and I think racism is 
going down, but it is still there.
    Ms. Jackson Lee. Thank you. Thank you.
    I want Mr. Potts and Ms. Walden to answer this question, 
very quickly, and then Ms. Clarke.
    Ms. Clarke, if you will just--I may have five seconds for 
you, but what the DOJ must do and what we must do, but to both 
Mr. Potts and Ms. Clarke--Ms. Walden, I am sorry--questions 
about generally how social media companies like Facebook can 
take down hate speech and, likewise, Google, just precisely so 
I can give her at least two seconds.
    Mr. Potts. Thank you, Congresswoman.
    Again, there is no place for hate or violence on Facebook. 
We Act swiftly through our--with our AI and our human reviewers 
to remove that content when it violates our standards. Anything 
that is tied to violence we are going to remove that swiftly.
    Ms. Jackson Lee. Thank you.
    Ms. Walden. We also use a combination of AI and humans to 
review content and remove it. In addition to removal, we 
promote counter speech across the platform.
    Ms. Jackson Lee. Ms. Clarke, DOJ?
    Ms. Clarke. The Justice Department must come to the aid of 
local law enforcement contending with hate crimes. They 
themselves should be bringing more cases and holding the 
perpetrators of these crimes accountable.
    The FBI should abandon its Black identity extremist 
designation and, most importantly, they should use their bully 
pulpit to speak out against the awful hate happening across the 
country and incentivize better data collection from local law 
enforcement as well.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Thank you.
    Chairman Nadler. The time of the gentlelady has expired.
    Ms. Jackson Lee. Burning churches. Thank you.
    Chairman Nadler. The time of the gentlelady has expired. 
The gentleman from Ohio, Mr. Chabot?
    Mr. Chabot. Thank you, Mr. Chairman.
    I would like to start by stating clearly and unequivocally 
that I reject White supremacy and all forms of hate. I am quite 
sure that my colleagues on this side of the dais share that 
point of view. In fact, I am quite confident that my colleagues 
on the other side of the dais do as well.
    Ms. Owens, let me begin with you, if I can. I think it is 
fair to say that you didn't start off on the conservative side 
of the ledger. Is that correct?
    Ms. Owens. That is correct. I was liberal.
    Mr. Chabot. Okay. So, just on a couple of issues, and you 
mentioned them in your statement but just to go back to them, 
if you could tell us again kind of what they are and what 
hatred that you have experienced as a result of having this 
point of view. You mentioned the term Blexit. Would you 
describe what that is and what hate that you have experienced 
as a result of your position on that?
    Ms. Owens. I launched a movement called Blexit, which is 
the Black exit from the Democrat Party. When I became educated 
about the issues and stopped reacting emotionally, which is 
what the Left wants us to do, presumably, when they hold up 
pictures of burning churches.
    I began to examine the facts and look at some of the 
narratives they were spinning. For example, in 2016 it was 
police brutality and I realized that they are dissuading us 
against our own best interests and I wanted to have a more 
productive dialogue with the Black community about the issues 
that are actually affecting us and impacting us.
    When I announced that I was a conservative, I have never 
seen anything more racist, more disgusting, and more vitriolic 
and more hate that has come my way in my entire life in the 
things that Democrats and the media say about me today.
    I have been referred to as an Uncle Tom, a bed wench--for 
those of you that don't know, that means a slave that sleeps 
with the master--a house nigger, and these are all words that 
have been said over and over again about Black conservatives 
when we have the audacity to think for themselves and become 
educated about our history and the myth of things like the 
Southern switch and the Southern strategy, which never 
happened.
    Mr. Chabot. You mentioned, I think, on--well, let me ask 
you this--I think you did--on the life issue. You are pro-life. 
Is that accurate?
    Ms. Owens. That is correct, and I started off pro-choice.
    Mr. Chabot. What sort of hatred, if any, have you 
experienced or do you get?
    Ms. Owens. Well, that hate tends to come, a majority, from 
Caucasian Democrats. When I start telling the truth about the 
fact that the community that is the most impacted by abortion 
is the Black community. Eight hundred to 900 Black babies are 
aborted every single day. That amounts to about 18 million 
Black babies aborted since 1973 and the Black population has 
stagnated. We are not--our population growth has stagnated 
completely.
    These are the kinds of logical discussions that I have had 
that have earned me all the titles that we discussed before.
    Mr. Chabot. I have got a whole bunch more questions, but 
thank you for your time.
    I would like to turn to Mr. Klein, if I could, for a couple 
minutes.
    Mr. Klein, when you were giving your opening statement, you 
got interrupted. I would like to--what were you going to say? I 
am not blaming the chair because it was over time. There were 
several witnesses that did that, and I get it. It is tough 
being chair sometimes. But, what were you going to say? What 
was your point?
    Mr. Klein. I was going to make two--
    Mr. Chabot. If you could turn the mic on there.
    Mr. Klein. Oh, I am sorry. Thank you.
    Mr. Chabot. That is all right.
    Mr. Klein. I was going to make two important points, that 
it was very painful to me that in light of the vicious anti-
Semitic remarks made by Representative Omar and others that no 
one in that party--many in that party defended her, saying she 
is not an anti-Semite and there was no consequences. She was 
not thrown off of any committee, as Steven King was for his 
outrageous remarks.
    I was going to simply end by saying we need to investigate 
the Students for Justice in Palestine and BDS terror 
connections. We need to demand university leaders--very 
important--condemn SJP hate groups by name. They won't condemn 
them by name. They just say ``We are against anti-Semitism.'' 
We must demand colleges must suspend and expel students who 
commit these terrible actions against Jewish people and that 
title 6 should be invoked and they should lose federal funding 
if they don't do the right thing when it comes to anti-Semitic 
bigotry.
    Finally, we should be having consequences for Members of 
Congress who make hateful and outrageous comments against 
blacks, Muslims, or Jews, and when it comes to Jews we have not 
seen that.
    Mr. Chabot. There you mentioned Members of Congress. There 
is a former member of Congress, I understand, that made a 
comment about Prime Minister Netanyahu recently. Are you 
familiar with that and what is your understanding and what is 
your concern about that comment?
    Mr. Klein. Well, that was Beto O'Rourke, who I believe you 
are referring to, who called Benjamin Netanyahu a racist. 
Nothing could be more absurd than that. He was involved in 
helping Ethiopian Jews, Black Jews, come to Israel.
    He has actually had the most positive policies towards the 
Israeli Arabs of any prime minister we have ever had. So, this 
is a ridiculous statement.
    Also, I might add, Benjamin Netanyahu has not built a 
single new community in Judea and Samaria since he has been 
prime minister. None. So, it is not like he is even building 
all over the place, which is attributed to him regularly. So, 
this comment was just really outrageous and despicable and I 
think it should almost disqualify him for higher office.
    Mr. Chabot. By him you are referring to who?
    Mr. Klein. Beto O'Rourke.
    Mr. Chabot. Thank you very much. My time has expired.
    Chairman Nadler. The gentleman from Tennesee, Mr. Cohen?
    Mr. Cohen. Thank you, Mr. Chair.
    Firstly, I would like to mention that there was a fire just 
outside of Knoxville about a week ago--10 days ago, where 
Highlander Education Research Center was burnt to the ground.
    Highlander is a famous think tank for activists, for people 
against nonviolence, where Dr. King went to be trained, where 
Rosa Parks went to be trained, where many people involved in 
the union movement have been trained.
    When they went and looked at the damages they found a 
symbol of White nationalism on the grounds, painted on there, 
similar to what was in New Zealand, similar to what has been 
seen at Charlottesville.
    I have written a letter to Attorney General Barr asking him 
to look at the possible hate crimes or White nationalism that 
was exhibited there and I would like to have that letter and 
the pertinent attached stories about Highlander and a swastika 
painted on the rocks at the University of Tennessee publicly 
entered into the record without objection.
    Chairman Nadler. Without objection.
    [The information follows:]

  
                        MR. COHEN FOR THE RECORD

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Mr. Cohen. Thank you, sir.
    First, I would like to ask Ms. Hershenov, Ms. Jackson Lee 
asked you about White nationalism and the main folks that are 
against African Americans, or blacks, and I am not competing in 
any way whatsoever. But, isn't it a pretty close race between 
African Americans and Jews for the hatred of White 
nationalists?
    Ms. Hershenov. I agree with you, Mr. Cohen, that we 
shouldn't compete. These things are absolutely linked. You 
might start with some White supremacists on anti-Semitism and 
you will get to anti-immigrant, refugees, Muslims, African 
Americans, and vice versa.
    Again, that if you look at these ideologies, and our 
researchers spend time--we look through tens and, in some 
cases, hundreds of millions of comments, images, and videos 
online.
    What you see on this is that there is--White supremacists 
used to want to keep dominance. After the Civil Rights Era, 
they became more and more scared of the extinction of the White 
race by--they will call people who are LGBTQ degenerate or 
sodomites.
    Excuse me, I am just going to use the words that we see 
over and over. They will look at the genetic inferiority of 
people that are not white. They will demonize refugees and 
immigrants. They will look at Muslims, and they say again and 
again who are the ones the orchestrate this?
    They are the Jews. That is what Bowers, the Pittsburgh 
shooter, came in. He said, ``I don't want these hordes of 
immigrants and refugees. It is the Jews that are doing it. All 
Jews must die,'' he shouted.
    Mr. Cohen. Let me ask you about the Jews. I think it was 
Mr. Klein said something about Islam and how many--some imams 
calling for certain actions, et cetera. Of all the crimes that 
you have looked into and studied, have there been anywhere 
Muslims terrorists have killed Jews?
    Ms. Hershenov. In the last 10 years about 23 percent of the 
extremist murders domestically have been perpetrated by people 
who adhere to radical interpretations--radical and violent 
interpretations of Islam.
    However, the reason I understand we are having this 
particular panel--this particular hearing--is that what we are 
seeing in the last three years in particular is a resurgence 
where most of the crimes are from right-wing extremists.
    Mr. Cohen. That is true, but let me ask my question. My 
time is limited. Do you have any record of people of the Muslim 
faith going and doing terrorist acts, killing Jews?
    Ms. Hershenov. Yes, and some years before. That is not--
    Mr. Cohen. When? When?
    Ms. Hershenov. I believe that there was a group a few 
years--a gentleman a few years ago who went and killed people 
who were not Jewish, but he thought were Jewish, in a house 
years ago.
    Mr. Cohen. Was that in Kansas City--the Missouri deal? That 
was at the JCC.
    Ms. Hershenov. No, that wasn't a house. The recent JCC ones 
were actually very troubled Jewish Israeli bomb threats.
    Mr. Cohen. Let me say this. There are not many cases. You 
can't remember when it was or where it was. There are not many 
cases.
    Ms. Hershenov. There are not many cases in the U.S. 
recently but there are many, many cases--
    Mr. Cohen. Right. That is enough. That is enough. We are 
running out of time.
    If President Trump would have come out after 
Charlottesville and said--condemned neo-Nazism and Klansmen, do 
you think that would have helped in the atmosphere of being--of 
White people standing up and saying White nationalism as being 
something bad?
    Ms. Hershenov. Absolutely. The bully platform has to be 
used to tamp this down and to call out where we are seeing 
extremism.
    Mr. Cohen. My time is limited, and when you say the bully 
platform you are not referring to Trump. You are talking, like, 
Teddy Roosevelt--the bully platform. I understand that.
    [Laughter.]
    Mr. Cohen. The gentleman, Mr. Potts, let me ask you a 
question. Twitter has opportunity for a person to report a 
tweet if they think it is abusive or harmful or hateful, et 
cetera.
    Does Facebook have that ability and do they make it easy 
for people to do?
    Chairman Nadler. The gentleman's time has expired but the 
witness may answer the question.
    Mr. Potts. Thank you, Congressman. Thank you, Chairman.
    Yes, we do have a similar ability. It is fairly easy to do 
to report those and we also use our tools to surface those 
proactively when we can.
    Mr. Cohen. Thank you, and I yield back the remainder of my 
time.
    Chairman Nadler. The gentleman from Texas, Mr. Gohmert?
    Mr. Gohmert. Thank you. I do appreciate all the witnesses 
being here and I do think we all agree. I am not sure all agree 
that all agree. But, I think we all agree. No one should have 
to suffer like any of you have, your children, family Members. 
Nobody should. It is outrageous.
    In this effort of trying to bring people together, I go 
back to the words of Abraham Lincoln--at least, it is 
attributed--if you look for the bad in people expecting to find 
it, you most assuredly will. It is also true you look for the 
good in people you are going to normally find something.
    I want to ask Mr. Klein, what are your thoughts about 
President Trump's remarks regarding the Charlottesville 
demonstration where he is quoted as saying, ``You also had some 
very fine people on both sides?''
    Mr. Klein. Well, I am glad you asked that because the media 
has really completely distorted the truth of that episode.
    What he meant, and he said so when he said it, is that 
there are fine people who want to get rid of the Robert E. Lee 
statue and there are fine people who are not haters who 
believe, for historical reasons, they want to keep that statue 
and he made that clear.
    Then in the same breath, Mr. Gohmert, in the same breath 
President Trump said, quote, ``I am not talking about the neo-
Nazis and the White nationalists when I say fine people because 
they should be condemned totally.''
    Yet, the media has never made that clear that he--in that 
statement he condemned neo-Nazis and White nationalists. He did 
not mean that they were fine people. Quite the contrary. He is 
disgusted by those people.
    Mr. Gohmert. Thank you.
    I look forward to the day when Martin Luther King Jr.'s 
dream is a reality, where we judge people by the content of 
their character, not the color of their skin. I am amazed how 
many times when there is an objection to something someone says 
that if the person making the objectionable comment happens to 
be Black or Jewish, then you are a racist or you are anti-
Semite.
    I have been amazed, Mr. Klein, the Anti-Defamation League 
has called you, as I understand, a Jewish person, to be anti-
Jewish. It is just interesting.
    Tell you what, Mr. Potts, and I certainly appreciate your 
noble service to our country. Facebook owns Instagram. Correct?
    Mr. Potts. Thank you, Congressman.
    Yes, Facebook does own Instagram.
    Mr. Gohmert. Yes, and do they have the same--does Instagram 
have the same standards as Facebook?
    Mr. Potts. For the most part, we apply our community 
standards across Instagram, too. There are certain things where 
there are differences, but for the most part, community 
standards apply as well.
    Mr. Gohmert. Well, I am told that I can have this screen 
shot at the back. Report as violence or threat of violence, and 
it talks about photos, videos, extreme graphic nature.
    There is a second screen shot, if I could see that? Here 
you have someone that is calling ``crush the United States 
under our feet,'' et cetera. That was reported, and within a 
minute, the report came back from Instagram that there is no 
problem here, basically. These aren't the drums you are looking 
for. Just move on.
    So, I am really curious. If you are going to enforce these 
standards, why are they so quickly enforced and erroneously 
enforced against people like my friends, Diamond and Silk, that 
I asked them recently when I saw them, ``Are you still having 
trouble with Facebook?'' They said now anytime we say something 
nice about Donald Trump, we spend forever just trying to prove 
that we are not a Russian robot and that they send us through 
all kinds of things just to keep using the service.
    Here you have people that as a result of their 
misunderstanding of their own religion, they want to crush the 
United States. They think of us as the big Satan. Israel is the 
little Satan. I would just encourage you to take a look at 
that, and why someone who wants to destroy the United States 
and kill everyone in this room gets a pass when others don't. 
So, I would welcome any explanation you can find for that.
    Mr. Potts. Thank you, Congressman.
    I am not familiar with that exact example.
    Mr. Gohmert. Well, I know. It just happened.
    Mr. Potts. Happy to get that back to my team to make sure 
that we have looked and reviewed that.
    Mr. Gohmert. Thank you.
    Mr. Potts. Any calls of violence that target people based 
off of their nationality, their ethnicity or religion--
    Mr. Gohmert. Well, I know the way it is supposed to be.
    Mr. Potts. --we would remove it. I just, unfortunately, am 
not familiar with that case, but that does go against our 
principles.
    Mr. Gohmert. I understand. My time has expired.
    Chairman Nadler. I thank the gentleman.
    The gentleman from Georgia, Mr. Johnson?
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Ms. Walden, many White nationalists have used 
misinformation propaganda to radicalize social media users. How 
is YouTube working to stop the spread of far-right conspiracies 
intent on skewing users' perceptions of fact and fiction?
    Ms. Walden. Congressman, thank you for the question.
    Most recently, we have made updates to our recommendation 
algorithm so that content that is on the borderline is not 
pushed out through our recommendation system. So, content that 
violates our guidelines, our hate speech guidelines, which 
prohibit anything that promotes and incites violence against 
individuals or groups or promotes hatred against individuals or 
groups based on their characteristics, including race, gender, 
ethnicity, religion, all of that content is violative of our 
community guidelines.
    Content that is on the border is content that we no longer 
include in our recommendation algorithm, and it can also be 
demonetized, and comments are disabled, et cetera. So, we do 
our best to ensure that content that is on the border isn't 
fully distributed across the platform.
    Mr. Johnson of Georgia. All right. Thank you.
    Mr. Potts, while Facebook has worked to stop the spread of 
the New Zealand video on its platform, 3 days later, the video 
was still spreading freely on WhatsApp, Facebook's encrypted 
messaging service. By design, WhatsApp does not have a way of 
tracking or preventing the spread of videos like the New 
Zealand video.
    What is Facebook doing to fix this issue and prevent 
WhatsApp from being used to spread hate speech?
    Mr. Potts. Thank you, Congressman.
    As you mentioned, on Facebook, on Instagram, we took 
immediate action towards that video. Once we were made aware, 
we were able to remove the video within 10 minutes, and we were 
able to leverage our artificial intelligence by uploading the 
video, producing a digital fingerprint, as Ms. Walden explained 
earlier, to prevent an additional 1.5 million uploads. We 
actually prevented 1.2 million and were able to find 300,000 
additional uploads of that video within the first 24 hours and 
had a very forceful and swift response.
    One of the issues in this case was that there were many 
variants of that video, but we continue to improve the 
database, improve our artificial intelligence to surface those 
and have them removed, in many cases, blocked.
    To your question about WhatsApp, WhatsApp has its own 
policies that go towards content. They are committed to working 
with law enforcement, and they do often.
    Mr. Johnson of Georgia. Thank you, Mr. Potts.
    Also, bots are used to manipulate and amplify speech on 
social media platforms, including conspiracy theories and hate-
based information. How is Facebook working to mitigate the 
power of the bots that amplify misinformation campaigns and 
promote them to trending on its platform?
    Mr. Potts. Thank you again, Congressman.
    At Facebook, when we talk about bots, we talk about 
inauthentic behavior. We have recently passed we call it our 
``coordinated inauthentic behavior policy'' to get at the root 
of the cause, which are networks of fake accounts or networks 
of inauthentic people working in concert to hide who they are, 
what they are doing, and what their intentions are.
    Over the course of the last year, we have taken down 
multiple networks, well into the double digits now, ranging 
globally, throughout the world. Some with fiscal motives, some 
with other motives. We are going to continue to invest in that 
work, and it will be a priority going forward.
    Mr. Johnson of Georgia. All right. Thank you.
    Dr. Abu-Salha, my deepest condolences to you on the loss of 
your three children.
    Dr. Abu-Salha. Thank you, sir.
    Mr. Johnson of Georgia. Does Islam teach Muslims to hate 
Jewish people?
    Dr. Abu-Salha. Absolutely not, sir. The mainstream Islam, 
and I am a practicing Muslim, prohibits hating anybody based on 
religion or ethnicity or faith or nationality. Actually, in the 
Koran, it says that killing any human being is akin to killing 
humanity, and reviving a soul is akin to reviving humanity.
    I have to tell you that in the Middle East, where I come 
from, Muslims, Christians, and Jews live peacefully together 
for centuries and centuries, only interrupted by politics at 
times or invasions and division. What you hear on the media is 
sometimes radical Muslims, and we in America, our mosques are 
growing and evolving to where we have a process of choosing and 
electing our board Members in the mosques. And we have policy 
to keep radicalism outside of our mosques and our country, too.
    Mr. Johnson of Georgia. Thank you. I will note the tender 
way in which both Ms. Paterson and Ms. Hershenov touched you as 
you were sharing your pain about the loss of your three 
children, and my heart goes out to our Nation for the pain that 
it has collectively due to just rampant violence based on hate.
    Dr. Abu-Salha. Yes, sir.
    Mr. Johnson of Georgia. With that, I yield back.
    Dr. Abu-Salha. May I add one line only? Is that after the 
tragedy, that the funeral was about 6,000 people of black, 
white, Jewish, Christian, nondenominational, even the atheist 
community denounced the crime. So, it was a scene that was 
American, actually.
    Chairman Nadler. Thank you.
    Before we go to the next witness--next Member, I want to 
announce we have received a number of statements that will be 
included in the hearing record. I will not be able to read all 
of the names of the organizations because they are numerous, 
but they include the Leadership Conference for Civil and Human 
Rights, the Sikh Coalition, the Simon Wiesenthal Center.
    I ask unanimous consent that all the statements we have 
received be included in the record.
    Without objection.
    [The information follows:]
  
                       MR. NADLER FOR THE RECORD

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Chairman Nadler. I also ask unanimous consent to enter into 
the record the letter to the Committee from the NAACP 
requesting that we conduct this hearing in the first place.
    Again, without objection.
    [The information follows:]

   

                       MR. NADLER FOR THE RECORD

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Chairman Nadler. The gentleman from Colorado, Mr. Buck, is 
recognized.
    Mr. Buck. Thank you, Mr. Chairman.
    Ms. Owens, I am going to direct these questions to you, if 
I may? I don't know that you have seen this, but it is a 
memorandum that the majority Democrats prepare for the 
Committee Members, and in this memorandum, they go through the 
various witness names and organizations that they represent--
the Anti-Defamation League, Legal Justice Society, the Lawyers' 
Committee for Civil Rights under Law.
    Then we get to you. Oh, my goodness. Candace Owens, 
director of communications at the conservative--nobody else is 
described as progressive or liberal. You are described as a 
conservative advocacy group, Turning Point USA, and a 
conservative commentator and political activist known for her 
criticism of Black Lives Matter and the Democrat Party.
    I think you have caused my friends on the left to go to 
their safe spaces, and I would love to explore with you a 
little bit of the reason for that. Do you consider yourself a 
conservative?
    Ms. Owens. I am a conservative, yes.
    Mr. Buck. Okay. Are you pro-life?
    Ms. Owens. I am pro-life.
    Mr. Buck. Okay. Does that trigger people when you see them, 
that they know that you are pro-life?
    Ms. Owens. It makes them very upset, and Democrats hate me.
    Mr. Buck. Do you own a gun?
    Ms. Owens. Pardon?
    Mr. Buck. Do you own a gun?
    Ms. Owens. No, sir.
    Mr. Buck. Next time you come to Colorado, we will take you 
shooting. Are you a Christian?
    Ms. Owens. Yes, I am.
    Mr. Buck. Are you proud of your family?
    Ms. Owens. I am very proud of my family.
    Mr. Buck. Okay. Let me ask you something. Do you hate 
Americans with Black skin color?
    Ms. Owens. Absolutely not. I actually love Americans with 
Black skin color so much that I am willing to fall on a sword 
1,000 times for them to wake up and realize that we are being 
lied to, abused, and used by the Democrat Party.
    Mr. Buck. How about Americans with White skin color, do you 
hate them?
    Ms. Owens. I do not, and that is a problem for people on 
the left.
    Mr. Buck. Do you hate Hispanics?
    Ms. Owens. I do not.
    Mr. Buck. Do you hate Asians?
    Ms. Owens. I do not.
    Mr. Buck. Do you hate lesbians or gays or anybody from the 
LGBTQ community?
    Ms. Owens. Nope, I have got all of that in my family.
    Mr. Buck. I am baffled. Because in Chairman's opening 
statement, he said that you openly associate with purveyors of 
hate.
    Ms. Owens. Yes. Purveyors of hate by his definition is 
anybody that supports the President. I support the President 
because he has done a tremendous job in helping the Black 
community, despite all of the rhetoric from the media and 
leftists that do not want him to be successful.
    Mr. Buck. So tell me a little bit about how the President 
has helped the Black community, if you would, please?
    Ms. Owens. Well, he has lowered the Black unemployment 
rate. It is the lowest it has ever been in history. He is 
getting us off of our feet. We see, I believe the last number I 
checked was 3.5 million people are off of food stamps, 
something that the Black Caucus sat down and didn't applaud. 
Neither did any of the Democrats applaud because they want a 
system where blacks are dependent on the Government.
    They are people that put in place the policies that broke 
down the Black family, and the biggest problem that is facing 
our community is father absence. Every room that I have been in 
with the President, he talks about real issues. He doesn't 
pander to us. He doesn't do Alexandria Ocasio-Cortez's Southern 
drawl accent and speaking to us like we are slaves. He asks us 
important questions, and the most important question he could 
have asked was Black America, what do you have to lose? Because 
we were already losing under Democrat leadership.
    Mr. Buck. Do you believe that you openly associate with 
purveyors of hate?
    Ms. Owens. I absolutely do not. I have no tolerance for 
hate whatsoever.
    Mr. Buck. Do you believe that college campuses should be 
open discussions--or there should be open discussions on 
college campuses for various issues?
    Ms. Owens. I absolutely do. You know, I do campus tours. 
Tonight, I am flying up to University of Connecticut to 
continue that, and we are being met with leftist groups. Three 
Antifa chapters have declared they are going to try to shut it 
down, and we face this violence every day on the left, and 
nobody ever wants to talk about it.
    Mr. Buck. I guess what I was going to ask you, you went on 
to explain it before I got the chance to. Have you ever been 
disinvited from speech opportunities at college campuses 
because of your conservative views?
    Ms. Owens. All the time.
    Mr. Buck. Is that a form of hatred, do you think?
    Ms. Owens. Of course, it is. We are not talking enough 
about political hatred in this country. We are not talking 
enough about conservative activists being attacked, like 
myself. We had a student whose dorm was set on fire for being a 
member of a Turning Point chapter. All we preach is for free 
markets and capitalism as a means to lift the most people out 
of poverty.
    That is my belief. Of course, my main thesis is that Black 
people do not have to be Democrats. We are not owned by the 
left, and I understand that causes some people trouble.
    Mr. Buck. So, as a conservative, you have attended many 
conservative events and visited with many conservatives. I am 
not denying for a moment that there are White supremacists, and 
we should condemn White supremacy.
    Ms. Owens. Of course.
    Mr. Buck. That there are Nazis, and we should condemn 
Nazis. That there are hateful groups all across the political 
spectrum, and we should condemn those.
    In your interactions with conservatives, have you seen 
hateful speech, bigotry, racism among the conservatives that 
you have associated with?
    Ms. Owens. I speak in front of conservatives probably three 
times a week. I jump on a stage, and I say everything pro 
black. They are so supportive, and they applaud. All they want 
is for Black Americans to realize that they are Americans, 
first and foremost.
    Conservatives are patriots. The President is a patriot, and 
I am a patriot. There is no skin color in patriotism.
    Mr. Buck. Thank God, we have you. Thank you very much for 
being here.
    Ms. Owens. Thank you.
    Chairman Nadler. Thank you.
    The gentlelady from California, Ms. Bass?
    Ms. Bass. Thank you very much, Mr. Chair.
    I want to thank all the witnesses that are here today.
    Dr. Abu-Salha--if I have pronounced your name correctly--I 
offer you my condolences, along with everyone else and, sadly, 
know your pain.
    Dr. Abu-Salha. Thank you.
    Ms. Bass. I wanted to know if after the tragedy--and you 
have been outspoken, if you have received any threats or 
harassment, experiences of people harassing you for speaking 
out as a Muslim?
    Dr. Abu-Salha. I personally did not. I did read an email 
last night that warned me of coming here and testify. After the 
tragedy, there was a tweet that said one--that said 3 down, 1.6 
billion to go. There was another tweet that said Craig Hicks 
should be given the Medal of Honor and released from custody.
    Ms. Bass. Thank you. I am very sorry to hear that.
    Ms. Paterson, you mentioned that you had some specific 
recommendations for us in terms of regarding White supremacy, 
and I wanted to know if you could give us a couple of examples 
of your recommendations?
    Ms. Paterson. Yes, one moment. We would like a national 
commission to be formed to study all forms of White supremacy. 
We think there should be a joint law enforcement-civilian task 
force to study White nationalism and to outline and organize 
counterinsurgency strategy.
    We don't like the notion of the ``lone wolf'' narrative. We 
think there is an organized White nationalist group around the 
world that is being connected. We want to study the role--I am 
glad you have brought Facebook and Google here--to study the 
role social media has played in enabling this threat.
    We need to develop a clearinghouse for data collection, 
reporting, and analysis on White nationalism. We need to 
fortify the Fifteenth amendment so that there is more voting on 
the part of disenfranchised groups. We think there should be 
humane immigration policies.
    One thing I think we need to talk about is that right now 
there are Latino children in cages. We think this is a definite 
manifestation of White supremacy and White nationalism.
    Ms. Bass. Okay, thank you very much.
    I think one of the first steps in addressing White 
supremacy, though, is really acknowledging the seriousness and 
the fact that it exists at all. Before our last election, we 
had four acts of domestic terrorism the week or two before, and 
they were not called that. From the man who had the bombs that 
fortunately didn't go off, the individual that was in search of 
African Americans to kill in Kentucky. He tried to enter a 
church and he couldn't, and so he killed two random Black 
folks. The horrible massacre at the synagogue, and then the 
shooting several days later at a yoga studio, where someone was 
looking for specifically women of color.
    In that, we have the FBI that is very concerned about Black 
identity extremists, and I just wondered, Ms. Clarke, if you 
could tell me of examples--how many acts of domestic terrorism 
were carried out by African Americans in the last few years?
    Ms. Clarke. Well, it is our view that this Black identity 
extremist designation is false. This was something created by 
the FBI's domestic terrorism analyst unit to essentially target 
Black activists today who are focused on issues like promoting 
police accountability. We don't see any evidence that Black 
civil rights activists pose a threat to our democracy today.
    Ms. Bass. Do you know of anyone--I know that there was a 
case in Texas where there was a young man who was arrested and 
incarcerated for a while, supposedly for being a Black identity 
extremist. Do you know of any other cases like that?
    Ms. Clarke. I am not familiar with other cases, but I will 
say that we have a pending Freedom of Information Act request 
that we sent to the FBI several months ago, and just a few days 
ago, we received mere acknowledgment of our request. We think 
it is time for us to shine a light on what is happening at the 
FBI. It is time for us to get more information about the scope 
of their activities, who they are investigating.
    Most importantly, it is important that we find out why they 
are diverting resources away from the real threat that drives 
the purpose of this hearing today, White supremacy and White 
nationalism.
    Ms. Bass. Thank you very much.
    I just wanted to also acknowledge when there was a threat 
by the--threats that were made, President Trump was asked about 
whether he sees White nationalism as a rising threat around the 
world today. He responded that he does not, but that ``It is a 
small group of people that have very, very serious problems.''
    I believe the woman from the Anti-Defamation League, when 
you talked about the incidences of White supremacist terrorist 
acts in the United States, what was the percentage that it has 
risen?
    Ms. Hershenov. Over the last 10 years, it was 54 percent, 
over half. Last year, it was 78 percent of extremist murders 
were by White supremacists.
    Ms. Bass. It is unfortunate that the President considers 
that insignificant. It is also unfortunate that after all of 
these acts, whether they have taken place in the United States 
or around the world, that he cannot bring himself to have a 
full-throated denunciation of White supremacy. Thank you.
    Chairman Nadler. I thank the gentlelady.
    Before we go to the next witness, I want to read two 
paragraphs from a Washington Post story that was just posted 
online. ``A congressional hearing to explore the spread of 
White nationalism on social media,'' meaning this hearing, 
``quickly served to illustrate the problem Silicon Valley faces 
after anonymous users on YouTube began posting vitriolic 
attacks that targeted others on the basis of race and religion. 
The hearing, held by the House Judiciary Committee, was 
streamed live on the video site owned by Google, which is 
testifying Tuesday. Alongside the stream, a live chat featured 
posts from users, some of whom published anti-Semitic screeds 
and argued that White nationalism is not a form of racism.
    `` `These Jews want to destroy all White nations,'' wrote--
I won't put in the name. `` `Anti-hate' is a code word for 
`anti-white' wrote another,'' et cetera.
    So, this just illustrates part of the problem we are 
dealing with.
    Mr. Gohmert. Could that be a hate hoax?
    Chairman Nadler. What?
    Mr. Gohmert. Could that be another hate hoax? Just keep an 
open mind.
    Chairman Nadler. All I know is, what I just read.
    The gentleman from Arizona, Mr. Biggs?
    Mr. Biggs. Thank you, Mr. Chairman.
    First of all, I ask unanimous consent to include in the 
record a list of political violence perpetrated or promoted by 
leftist organizations.
    Chairman Nadler. Without objection.
    [The information follows:]
   
                        MR. BIGGS FOR THE RECORD

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Mr. Biggs. Thank you.
    I also, I am riffing on something that Mr. Buck, the 
gentleman from Colorado, was talking about. In the listing of 
witnesses in Chairman's memo, it did something I have not seen 
in my brief time in Congress or, indeed, in my many years of 
legislative service in my home State. That is an editorial 
comment about a witness.
    Some might even consider that this not-so-subtle 
editorializing is, in and of itself, an indicia of animus. It 
is unfortunate, but it demonstrates how easy it is to let one's 
bias appear even in what is supposed to be an innocuous listing 
of witnesses for this hearing.
    Chairman Nadler. Will the gentleman yield?
    Mr. Biggs. Yes, I will yield, sir.
    Chairman Nadler. I assume you are referring to what is 
written about Candace Owens, where it says she is a director of 
communications at conservative advocacy group Turning Point USA 
and a conservative commentator and political activist known for 
her criticism of Black Lives Matter and of the Democratic 
Party.
    I don't think she would quarrel with the accuracy of that. 
It is a simple statement of who she is.
    Mr. Biggs. Reclaiming my time, what I will say about this 
is you never, ever see anybody characterized in any other list 
of witnesses--this is the first time I have ever seen that--
other than stating what they represent or the group that they 
are from. This is seemingly, seemingly anyway, going beyond the 
bounds of what is the norm.
    That is an indication to me of how easy it is to 
demonstrate animus. So, it means for a logical question of Ms. 
Owens, which she has already addressed to some respect, is, as 
you talk, Ms. Owens, and you go to universities, like you are 
going to U-CONN tonight, do you receive hate speech directed at 
you?
    Ms. Owens. All the time. I really do feel like the media on 
the left have made it okay. I do just want to add that my 
biography, which I submitted, you reduced it to one sentence, 
calling me just a conservative activist, and it wasn't what I 
said or what I submitted to your office last night.
    I just think that you opened with anti-black bias, and I 
see it coming from Chairman today.
    Mr. Biggs. Ms. Owens, these efforts to shut you down when 
you speak publicly on issues that you care about under the 
protection of the First Amendment, are they peaceful?
    Ms. Owens. No, they are really scary. They threaten us 
online perpetually. I receive threatening letters to my home 
when the media drums up narratives and pretends that I hate 
Black people and that I hate gays or that I hate Muslims, with 
no evidence supporting any of those claims. What they are 
inviting is for people to think it is okay to be violent 
towards me when they see me. They want to make it an Act of 
virtue for people to be violent toward Black conservatives that 
are outspoken.
    Mr. Biggs. There are, on occasion, false accusations and 
staged hate crimes. What impact do those have on actual, real 
hate crimes?
    Ms. Owens. It makes it harder, I think, for people to come 
forward or for people to believe it. I don't see enough 
condemning of what Jussie Smollett did to this Nation in terms 
of tearing us apart and causing a debate, and obviously, the 
left was quick to believe him and put him on a platform despite 
absolutely no evidence.
    It just makes it harder. Again, it just makes it harder for 
us to come together as a nation, which I think is what the 
President is trying to do, bring everybody together.
    Mr. Biggs. Ms. Owens, are you familiar with the case of 
Isabella Chow, who is a UC Berkeley senator who was harassed 
because of a position she took?
    Ms. Owens. I am not.
    Mr. Biggs. Well, Ms. Chow took the position of basically 
abstaining from a vote due to religious concerns and was 
harassed out of her position, and she was--hate speech galore, 
all arising and going forward.
    So, it isn't that there isn't hate speech. It is that we 
need to condemn all hate speech. Your thoughts?
    Ms. Owens. That is correct. I definitely agree. We need to 
condemn all hate speech. There is only type of hate speech like 
that that they like to talk about and give a platform to. There 
is a double standard in this country, and that double standard 
is being felt the most by Black conservatives, the Jewish 
community, and Christians.
    Mr. Biggs. So, Mr. Klein--thank you, Ms. Owens.
    Mr. Klein, you remember Chairman agreeing to give you an 
extra 30 seconds because of the interruption that you 
experienced during your opening statement? Then do you remember 
being gaveled down by Chairman once you began speaking of the 
anti-Semitic remarks by a Member of Congress.
    We have just timed this that you only got 12 seconds. I 
have 30 seconds left, and so I am going to give you those 30 
seconds that you were promised and were denied.
    Mr. Klein. Well, I am deeply pained that after a 
congresswoman from Minnesota called Israel evil, hypnotized the 
world, Israel is an apartheid state, Jews use their money to 
promote what they want out of Congress, that this woman was 
defended by leaders of her party, defended by at least three 
Members of her party who were running for President with no 
consequence.
    She should have been removed from all of her committees 
just the way Steve King was for this unbelievable outburst of 
hatred toward Jewish people. In fact, there is actually a 
Member at this very Committee who publicly called Jews 
``termites,'' of this committee, and there was no consequence 
to that outrageous statement.
    S, this is really frightening to me, especially as a child 
of Holocaust survivors. If there is not consequences to this 
type of hate speech against Jews, you are only going to get 
more of it. We are only going to embolden people to continue 
this. Ultimately, hate speech turns to the physical violence. 
That has been true throughout Jewish history, and that really 
frightens me.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Florida, Mr. Deutch?
    Mr. Deutch. Mr. Potts, thanks to your service to our 
country.
    Dr. Abu-Salha, thank you for being here today. I cannot 
imagine the pain that you feel every day. Your being here and 
speaking out is helpful for this Committee as we work to make 
sure that the government is doing everything that it can to 
address hate crimes, to focus, as we are this morning, on the 
rise of White nationalism.
    I wanted, Ms. Hershenov, to ask just a couple of questions. 
There was an episode of the New York Times podcasted daily last 
year about a Gainesville, Florida, police officer who was 
shocked by the murder of Heather Heyer at the Unite the Right 
rally and was concerned because Richard Spencer was going to be 
coming to the University of Florida and reviewed--he reviewed 
websites, videos online, tried to prevent violence in 
Gainesville and found a complete lack of intelligence reports 
on the alt right from government sources.
    State police and the FBI didn't have helpful information 
for him. Then you look at the story--and that was focused on 
the Justice Department--then you look at the story from just a 
week or so ago about the Department of Homeland Security and 
the branch of analysis in the Office of Intelligence and 
Analysis that focused on the threat from homegrown violent 
extremists and domestic terrorists.
    Shared that information with State and local law 
enforcement and that group was--that branch of I&A focused on 
domestic terrorism was eliminated and the analysts were 
reassigned and there were explanations given as to why that 
was.
    The question that I think both of these get at is since the 
ADL tracks and reports on extremism, if you could tell us 
whether--what you think the government, in particular the 
Justice Department and the Department of Homeland Security, can 
be doing more of to track and respond to these kinds of threats 
and whether the kinds of reporting like the one that the New 
York Times reported on last year, or this article just a week 
or so ago accurately reflect a sense that there is not enough 
attention being paid?
    What more can the government should they be doing? What 
should we be focused on?
    Ms. Hershenov. Thank you for that question, Mr. 
Congressman.
    I agree with what you imply, that there has not been enough 
attention and, again, that is what this hearing is about--not 
other forms of extremism but one that has been under resourced, 
under discussed.
    We at the ADL are very concerned about the disbanding of 
that DHS intelligence group. We think that the DHS need to do 
much more to coordinate DHS, DOJ, FBI in tracking extremism and 
domestic extremism.
    To disband that in an uncoordinated way among other places 
is not the best thing to do. That being said, we have supported 
legislation that you have sponsored, sir--we are well aware 
that you have to be careful in tracking and you can't go over 
the edge of what is constitutionally protected, and we have 
worked with you and will continue on that.
    This disbanding is absolutely the wrong direction. This is 
not paying attention to a rising threat and this government can 
do more than one thing. You do not have to stop paying 
attention to other threats by putting the necessary resources 
into this one.
    Mr. Deutch. Thanks.
    Mr. Potts and Ms. Walden have talked about the way that 
online platforms have responded to hate. I would actually like 
to focus on a different direction and ask you, Ms. Hershenov, 
how White nationalist groups actually organize online, whether 
it is on existing platforms or on the dark web and why is it 
that we seem to throw up our hands and say, it is the dark 
web--we can do nothing about it?
    Why shouldn't that be a focus of our work to go at the root 
of this, which is these horrific posts that so often lead to 
violence?
    Ms. Hershenov. So, that is a terrific question.
    First of all, let us look at Pittsburgh and New Zealand, 
and let me just take a moment to clarify something that was 
inaccurately said about the New Zealand shooter being a lefty 
eco-terrorist because the New Zealand shooter had ties to the 
alt right and identitarianism.
    His manifesto raged against immigration and White genocide. 
He said, quote, ``We must crush immigration and deport those 
invaders already living on our soil. It is not a matter of our 
prosperity but the survival of our people,'' and his weapons 
and gear were full with White supremacist images.
    So, apologies for saying that. In terms of what we can do, 
we see places--some of the smaller websites that radicalize.
    What these do--what so many of these White extremists are 
lone wolfs. They are not part of, like, a hate group. They 
don't go out to their neighborhood like decades ago to find the 
local Ku Klux Klan.
    They find communities. They find materials. That is their 
community. That is the group. That is who they signal to. They 
recruit. They radicalize. They reach them.
    So, then if they are thrown off of bigger platforms, they 
go on to smaller ones. What I would say on the social media is, 
one, we do have to be careful about whether, in taking stuff 
off the web where we can find it, we push things underground 
where neither law enforcement nor civil society can prevent and 
deradicalize. There is a balancing Act there that we have do 
it.
    Chairman Nadler. You have--
    Ms. Hershenov. May I say two more things, Mr. Chairman?
    Chairman Nadler. Quickly.
    Ms. Hershenov. Okay. To the tech companies, I would say 
that there is no definition of methodologies and measures and 
hate--the impact, what type? Is it images? Is it podcasts?
    We don't have enough information and they don't share the 
data. To go against this radicalization and to counter it, we 
need better information and a more rigorous framework.
    Chairman Nadler. The time of the gentleman has expired. Mr. 
McClintock from California?
    Mr. McClintock. Thank you, Mr. Chairman.
    As I have been listening to the testimony and the 
questions, it strikes me that perhaps both sides are losing a 
perspective of why we have a First Amendment. It is because the 
freedom to speak our minds is absolutely essential to a free 
society.
    Jefferson said, ``Error of opinion may be tolerated where 
reason is free to combat it.'' Speech can be ugly, disgusting, 
hateful, prejudiced, and alarming. It can never be dangerous to 
a free society as long as men and women of good will have the 
freedom of speech to dispute it, challenge it, and reject it.
    Suppressing speech--even the most hate-filled speech 
doesn't diminish its influence. It strengthens it. I think 
Churchill made this point every clearly when he said, ``It is 
the very conflict of spiritual and moral ideas which gives the 
free countries a great part of their strength.
    You see these dictators on their pedestals surrounded by 
the bayonets of their soldiers and the truncheons of their 
police. Yet, in their hearts there is unspoken fear. They are 
afraid of words and thoughts. Words spoken abroad, thoughts 
stirring at home, all the more powerful because forbidden 
terrify them. A little mouse of thought enters the room and 
even the mightiest potentates are thrown into panic.''
    Then he goes on to say, ``A State of society where men may 
not speak their minds, where children denounce their parents to 
the police, where a businessman or small shopkeeper ruins his 
competitor by telling tales about his private opinions--such a 
State of society cannot long endure if brought contact with the 
healthy outside world.''
    Free societies don't punish words and thoughts. They punish 
deeds, and the reason for that is because words and thoughts 
can be countered by words and thoughts. That is why we have a 
First Amendment.
    What we are seeing across the world today is that it is a 
very slippery slope between banning hate speech and banning 
speech we just hate.
    We have seen many examples even in our own country recently 
of legitimate speech being suppressed on college campuses, on 
social media platforms, and even in public discourse.
    If there is an ideology that we don't like, the weakest 
thing that we can do is try to forbid it or suppress it. The 
strongest thing we can do is to use our own freedom of speech 
to confront it and defeat it on its merits.
    If we allow our society to become one where men and women 
may not speak their minds, as Churchill said, we will have lost 
the very quality that he said gives free countries a great part 
of their strength.
    As Churchill said, these ideologies cannot long endure if 
brought into contact with the healthy outside world but that, 
in turn, requires unrestricted freedom of speech, precisely the 
freedom that is protected by our First Amendment.
    We have made very limited exceptions when speech becomes 
explicit incitement to do violence or to falsely defame an 
individual's reputation. Even in the case of defamation the 
truth is always an absolute defense.
    What we are hearing now is something fundamentally 
different. It is to set up government or corporate officials to 
decide what speech is acceptable and what is not, and that is a 
very dangerous power that can quickly be abused.
    Today, a great deal of public discourse is conducted on 
social media and major platforms like Google and Facebook that 
are here today. We have granted them legal immunity from the 
content of their platforms under the assumption that they are 
merely providing a public square and that those who use it 
should be held accountable for their own statements.
    This is appropriate, as long as these platforms are not 
practicing any form of censorship or favoritism other than, of 
course, censoring explicit incitement to violence.
    We are discovering, however, that they are indeed 
practicing censorship and political favoritism. This is their 
right as private corporations.
    Once they begin to practice censorship and political 
favoritism they cease to be neutral platforms and instead 
become publishers who are responsible or their content and 
subject to action for incitement or defamation.
    So, my question to the internet platforms represented here 
today is, I don't think you can be both. You can't be a neutral 
platform and at the same time exercising editorial control over 
content.
    So, the question, very simply, is which are you? Are you a 
neutral forum or are you an editorial publication responsible 
for your content?
    Mr. Potts? Ms. Walden? Which is it?
    Mr. Potts. Thank you, Congressman.
    First and foremost, Facebook is a tech company. We are not 
a platform, in that sense. We are not a content creator. We do 
not edit content, although we do moderate content under our 
community standards.
    After hearing your discussion, I think those are many of 
the issues that we wrestle with--to give people the ability to 
have a voice on a platform but, also, to balance safety.
    We err on the side of allowing more speech. We want to give 
people the voice but we do have to draw a line somewhere. We 
feel that by drawing lines around things like calls to 
violence, even some things that are more egregious--child 
pornography, for example, by not having that on the platform we 
will give the platform to more people so they can share their 
voice.
    So, it is a constant tension that we wrestle with daily. My 
teams wrestle with it all the time. We try to strike that 
balance. It is a hard one. We know that there are many 
opinions. We want to be across all the spectrum of ideas, to 
have those ideas fostered on the platform. But, again, it is a 
difficult discussion.
    Mr. McClintock. The concern is some--more equal than 
others.
    Chairman Nadler. The gentleman has expired. Ms. Walden may 
answer the question, too.
    Ms. Walden. YouTube is a place where we want anyone to come 
and share their ideas. Diverse opinions about their politics, 
things that are even controversial or offensive.
    Our community guidelines are political neutral and YouTube 
is a place where users are uploading content. So, the community 
guidelines are in place to ensure that we are creating a free 
and open platform for users to upload their own content, but 
they are also in place to ensure that is happening free from 
hate, from violence, and harassment on the platform.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Louisiana, Mr. Richmond?
    Mr. Richmond. Thank you, Mr. Chairman.
    Let me start by asking unanimous consent to place into the 
record a letter that I wrote as chair of the Congressional 
Black Caucus June 17th of last year to Attorney General 
Sessions and Acting Director McCabe, expressing our concern 
over the rising--the alarming number of hate crimes, the rise 
in hate crime, and all of the other things, and asking this 
Congress to hold a hearing.
    So, I want to thank you for doing that and I would like to 
insert that into the record because that was before Tree of 
Life.
    Chairman Nadler. Without objection.
    [The information follows:]

   
                      MR. RICHMOND FOR THE RECORD

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Mr. Richmond. That was before Charlottesville. So I want to 
thank you for stepping up to the plate and having this hearing.
    Let me just say, because we heard a pretty accurate 
description of the First Amendment, and I will not impugn any 
intent to it but I think that there was one glaring omission, 
which is you don't get to yell hate in a crowded theater.
    Just because you are upset with your station in life and 
sitting in your mama's basement in your boxers you don't get to 
spew hate that you know will incite violence because you can 
hide behind anonymity.
    It was said that we are fear mongering, and the concern 
over White nationalism may be misplaced or even--I think it was 
quoted as stupid. I will just tell you that the families of the 
Emanuel 9, those were real funerals. Those were real kids 
without real parents.
    Those are real grandparents who were worshipping the Lord 
and invited the young man in and let him share with them their 
worship experience.
    According to the perpetrator, he said they were so nice--
they were so welcoming, I almost changed my mind.
    So, I want us to put it back in perspective what we are 
talking about here. It is not just free speech. We are talking 
about inciting violence. We are talking about finding and 
influencing weak people to do dastardly deeds.
    Because the pain is very real. So and now, look, I am equal 
opportunity and I am very honest about how I feel. We know 
words have consequences. You can ask Congressman Steve Scalise. 
Words have consequences and we owe the American people better 
rhetoric.
    My fear is that we can't have 1600 Pennsylvania giving 
harbor and empowering people to feel that way.
    So with that, since we have a White House that is actually 
probably giving safe harbor and condoning it, let me ask the 
tech companies, because you all did say that you will inform 
law enforcement when you find bad users.
    Do you talk to each other at all so if you identify 
somebody will you then alert Google and Twitter and Facebook 
and Instagram and everybody? Do you all coordinate at all?
    Mr. Potts. Thank you, Congressman. I will start, Ms. 
Walden.
    We do have strong industry partnerships. One is the GIFCT, 
and that is the Global Internet Forum for Counterterrorism.
    So, in the case like New Zealand, for instance, when we 
became aware of that our first priority was to work with the 
New Zealand law enforcement, which we did. We sent some of our 
trust and safety officials on the ground to be a resource for 
law enforcement.
    One of the next steps we took was to upload the images into 
our AI, designate it as a terrorist attack, and then go work 
with companies like Microsoft, Twitter, Google, SnapChat, 
others, sharing it across the board so they could also be on 
the lookout and then enact their systems to prevent it.
    Ms. Walden. I can just reiterate that the Global Internet 
Forum to Counter Terrorism is a body that the four companies 
founded and in the context of New Zealand it is a way in which 
we used hashes to ensure that we were minimizing the 
distribution of that content in the context of New Zealand.
    There have long been close partnerships between the 
companies on working on issues around hate and violent 
extremism terrorism, and we find that that really enhances our 
ability to learn from one another in the ways that we are 
tackling these problems that are unique on our individual 
platforms.
    Mr. Richmond. Thank you, and I would just encourage you all 
to figure it out because you don't want us to figure it out for 
you.
    So, thank you, and with that I yield back, Mr. Chairman.
    Chairman Nadler. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Reschenthaler?
    Mr. Reschenthaler. Thank you, Mr. Chairman, and thank you 
to all the witnesses for being here today.
    So, the first time I ever spoke on the floor of the U.S. 
House was to condemn White nationalism and White supremacy. I 
am very proud of this.
    I am also very proud of the fact that earlier this year 
when a member of my own conference and my own party made 
inexcusable remarks, Republican leadership acted very quickly 
and disciplined him. In fact, that member sits on zero 
committees right now.
    It is a shame that the same can't be said for my colleagues 
across the aisle. They continue to stand by and accept anti-
Semitic remarks from a member of their own party.
    They couldn't even unite around a simple resolution to 
condemn anti-Semitism without watering it down.
    Last year, 11 Jewish worshippers were killed and six others 
were wounded at the Tree of Life Synagogue, which is just 
outside my district in Pittsburgh, Pennsylvania.
    The day after that cowardly act, I stood in solidarity with 
Americans of all religions, of all races, of all ethnicities at 
a vigil to honor the victims of that crime.
    We have to come together as a Nation to stand up against 
hatred and bigotry in all forms, and all forms includes anti-
Semitism.
    So, Mr. Klein, what do you think Congress can do to combat 
the rise of anti-Semitism?
    Mr. Klein. Well, one of the initial things I agree with 
you, Congressman, is there should be consequences to Members of 
Congress who make repeated anti-Semitic remarks that are false 
in addition to being insensitive.
    When there is not consequences it only emboldens others to 
continue that, and also when it comes to campuses where there 
has been constant verbal violence against Jews, there has been 
no consequences.
    The universities refuse to publicly name those people who 
have made these awful rallies and statements and they have 
never dismissed them from school, expelled them.
    But, by the way, when these types of episodes occur against 
blacks or gays or Muslims, they are expelled frequently. That 
is common. As they should be. I am not opposed to that.
    So, we should really study why is it that one half of the 
world's Muslims have anti-Semitic views. This is ADL's own 
survey. It is not my survey.
    Why are one-third of American Muslims have anti-Semitic 
views? Is it a coincidence that two of the three freshmen who 
have made anti-Semitic remarks happen to be of that faith?
    We should have a study about that, and President Sisi, a 
Muslim leader of Egypt, has said that we need a religious 
revolution and imams must step up to the plate and start making 
it clear that Islam has got to stop interpreting the Koran in 
the way it does which promotes hatred to all sorts of people, 
especially Jews.
    Mr. Reschenthaler. Thank you, Mr. Klein.
    You were speaking briefly about college campuses. I speak 
at a lot of college campuses and there is a lot of talk about 
boycott, divestment, and sanction, or the BDS movement.
    In your opinion, is this fueling the anti-Semitism on 
college campuses and, if so, to what extent?
    Mr. Klein. Yes. BDS is an anti-Semitic movement whose 
goal--its leaders say openly it is to destroy Israel, to 
boycott, divestment, and sanction.
    Fortunately, university precedence has not allowed anything 
to happen with that specifically. Resolutions are passed 
regularly on this. There is rallies about this really 
demonizing Jewish people and demonizing the Jewish State of 
Israel.
    We really need strong federal laws that make it clear that 
American governmental bodies will not do business with any 
organization or company that supports BDS. They can say 
whatever they want. It is not a freedom of speech issue. They 
can condemn Israel and Jews.
    The U.S. government will not do business with them. That is 
really what has to happen because the ultimate goal of BDS is 
Israel's destruction.
    These people, by the way, never condemn the Palestinian 
Authority, never condemn other outrageous entities that promote 
hatred. The Palestinian Authority pays Arabs to murder Jews.
    They name schools, streets, and sports teams after Jew 
killers. They incite hatred against Jews in their schools and 
their media and their sermons and speeches, and you never see 
these BDS people condemning this really vicious human rights 
abusing entity, making it clear this is all about Jews. It is 
all about anti-Semitism.
    Mr. Reschenthaler. Thank you for your responses. I yield 
back the remainder of my time.
    Chairman Nadler. I thank the gentleman.
    The gentleman from Rhode Island, Mr. Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to our 
witnesses for being here.
    There have been, obviously, a number of very high-profile 
acts of violence in the United States by White supremacists: 
the Tree of Life Synagogue in Pittsburgh, the Unite the Right 
rally in Charlottesville, the Mother Emanuel Church in 
Charleston, and the Sikh Temple in Oak Creek, Wisconsin.
    So, I thank Chairman for convening this hearing and regret 
that there are some on this panel who have tried to hijack this 
hearing and desecrate the lives lost to the hate crimes and 
violence of White supremacists by attempting to use this as an 
opportunity promote a political position or a political party, 
and I think that is despicable and deeply regrettable.
    During the last 10 years, 76 percent of individuals killed 
by right-wing extremists were killed by White supremacists, 
making, as you say in your report, making White supremacy the 
most deadly type of extremist movement in the United States 
over the last 10 years. That is a fact, and we have to do 
something about it and that is what this hearing is about.
    So, I want to begin with, first, the technology platforms 
because I do think something that is different today is that 
the ability of White supremacists who are advocating violence 
and advocating and preaching hate have an ability to reach many 
more people because of the advent of technology.
    It seems to me--I would take it both you, Mr. Potts, and 
you, Ms. Walden, agree that there is a rise in White supremacy 
activity in the United States. I think that is pretty clear, 
correct? You don't dispute that?
    Can you answer? You don't--you agree that White nationalism 
is enjoying a meaningful resurgence in the United States, based 
on the reporting from ADL and law enforcement?
    Ms. Walden. Yes, I am aware of all the research.
    Mr. Cicilline. Okay. There is no question that media 
companies play a role, not intentionally perhaps, but play a 
role in facilitating the spread of communications on behalf of 
White supremacists or on behalf of the White supremacy 
movement?
    Ms. Walden. That is something we are absolutely concerned 
about. That is why we have policy--
    Mr. Cicilline. Okay. Great.
    You both, both Facebook and Google, believe that you have a 
responsibility to curb or prevent or restrict as much as you 
can the spread of these kinds of attacks on your platforms, 
correct?
    Ms. Walden. Yes.
    Mr. Potts. Yes, Congressman.
    Mr. Cicilline. So, let me ask specifically, you referenced, 
Mr. Potts, the creation of the Global Internet Forum to Counter 
Terrorism. I think both Facebook and Google are part of that 
effort.
    At Facebook you hired in 2016 a number of individuals to 
proactively examine and remove things from Facebook that were 
considered connected to terrorist groups?
    Mr. Potts. That is correct, Congressman.
    Mr. Cicilline. That has been a reasonably successful effort 
so far, has it not?
    Mr. Potts. There have been significant investments and 
significant progress.
    Mr. Cicilline. Will Facebook today commit to dedicating the 
same kind of full time team to proactively removing White 
supremacist content and promoting counter speech as you did 
with terrorist propaganda?
    Mr. Potts. That is an easy commitment because we are doing 
it currently, Congressman.
    Mr. Cicilline. You have a Global Internet Forum to Combat 
White Supremacy?
    Mr. Potts. Congressman, we treat White supremacy and White 
hate organizations under our terrorist standard where we do 
share that with--
    Mr. Cicilline. So, let me ask you about a particular case. 
Facebook announced on March 27th that it would ban White 
nationalist content from its platforms, acknowledging that 
White nationalism and separatism cannot be meaningfully 
separated from White supremacy and organized hate groups.
    A few days later on March 30th, Facebook publicly said that 
the video from Faith Goldy entitled ``Race Against Time'' where 
she stated openly that people of color and Jews are replacing 
White populations and specifically urged viewers to help stop 
the White race from vanishing did not violate Facebook's 
policies.
    A week later, as of last Friday, the video remained on the 
platform and was only formally removed yesterday. So my 
question is why was it not immediately removed. Facebook has 
said it will ban Faith Goldy and other accounts including from 
the Aryan Strike Force.
    What specific proactive steps is Facebook taking to 
identify other leaders like Faith Goldy and preemptively remove 
them from the platform?
    Mr. Potts. Thank you, Congressman.
    When we become aware of someone that espouses hate and 
violence, that has ties to these ideologies, we do review them 
and we will remove them if we can find those necessary links.
    I think that is the case with Ms. Goldy. I believe she was 
removed from the platform. There will be no praise, support, or 
representation of her on our platform, going forward, and I 
believe that is effective as of yesterday.
    Mr. Cicilline. Mr. Chairman, I would like to just read and 
ask the witnesses to respond to a letter from Bend the Arc to 
the Committee that reads, in part, ``It is not only the Trump 
Administration's rhetoric and refusal to unequivocally condemn 
White nationalism that is problematic but his actual xenophobic 
policies have emboldened the most openly racist elements of our 
society and posed grave danger to immigrants and people of 
color.
    Violence does not just take the form of mass shootings and 
vigilante murders. It is also family separation and refugee 
bans. It is not just racist slurs about Mexicans and Muslims. 
It is the misuse of executive power and the declaration of a 
national emergency.
    Social movements on the extreme right are energized by such 
policies and such words. Some of them move to violence. Others 
mobilize to pull the country through policies and through 
politics ever more in the direction of bigotry, mistrust, and 
polarization.''
    It feels like that is the elephant in the room that has 
been absent--the role of the bully pulpit of the President of 
the United States, and I would ask at least, may I ask, I would 
ask the first three witnesses, and I wanted to express to Dr. 
Abu-Salha thank you for being here and we all express our deep 
condolences, and your courage and strength to be here is a nice 
way to honor your three children.
    Dr. Abu-Salha. Thank you.
    Mr. Cicilline. Dr. Hershenov from the ADL?
    Ms. Hershenov. Certainly. Thank you, Congressman.
    I completely agree with you. There are two things that we 
need from our leaders. One, we need what they say and when they 
dehumanize and demonize refugees or Muslims or anybody else 
from a marginalized community that is a problem, and the other 
is policies--what they do.
    When you have anti-Muslim bans and anti-immigration and 
refugee stuff, this gives embrace and emboldens White 
supremacists.
    I am not saying that they are White supremacists. I am 
saying that this is celebrated and emboldened. So you are 
absolutely right.
    Mr. Cicilline. Can I get Ms. Paterson?
    Ms. Paterson. As I said earlier, I come here in peace and I 
think I only see two Members of the GOP here. Is that correct? 
Right at this moment?
    Chairman Nadler. Make a statement, please.
    Ms. Paterson. Pardon? No. No. But, this is important.
    I think the point you raised is very important. I was 
delighted to hear that the Congress has come out against White 
supremacy and White nationalism.
    One thing that troubles me and friends of mine is that you 
don't seem to say anything when President Trump says these 
provocative things that we think embolden White supremacists 
and White nationalists. I understand the political dynamics.
    We would love to see Republicans stand up and say, ``Mr. 
Trump, what you are saying is not helpful. It harms people of 
color. It harms Muslims.''
    So, I would just call upon you not in an adversary way but 
in a genuine way if you find things that he is saying are 
negative that you would say something.
    Chairman Nadler. The time of the--
    Mr. Cicilline. We would like that as well.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Florida, Mr. Steube?
    Mr. Steube. Thank you, Mr. Chair.
    I would love to see my Democratic colleagues condemn anti-
Semitism. I have a resolution that I have filed. One of their 
own Members of their own caucus have said very racist, anti-
Semitic remarks and have failed to directly address that. So to 
your point, I would love to see the other side of the aisle 
condemn one of their own for their own anti-Semitic remarks.
    I would like to take my time to yield to Ms. Owens. If 
there is anything that has been said--I am the last Republican 
here. So, if there is anything that you would like to respond 
to, I would like to give you the balance of my time to do that.
    Ms. Owens. Yes. I actually wanted to respond to Congressman 
Cicilline because he was making references to me, and I thought 
that was a bit cowardly. He was dishonest when he said that the 
President refused to condemn White nationalism. Mr. Potts just 
literally gave the exact quote of the President doing just 
that.
    He does not want to accept the reality that the President 
has under multiple occasions condemned White supremacy and 
White nationalism, and the best condemnation of that is in the 
President helping the Black community every single day with 
this policies.
    He also brought up family separation. This seems to only be 
an issue for illegals at the border. Nobody ever wants to talk 
about Black babies being separated from the womb of Black 
mothers. So, if he actually cared about that, he would be 
embracing me.
    Last, he brought up the rhetoric of the President in the 
same breath that he referred to me as despicable. I am tired of 
hearing the left refer to people as despicable, as deplorable. 
We are Americans. We are patriots. Even if we disagree with 
you, name calling should not be something that is done, 
especially in these chambers.
    Mr. Steube. Thank you, Ms. Owens.
    Mr. Klein, is there anything that you would like to respond 
to that that has been said? I will give you the remainder of my 
time.
    Mr. Klein. Well, I am really confused when the good doctor 
says that Islam does not teach hatred of Jews, there is no 
problems with that issue, when, in fact, there is a dozen or 
more imams in States around the country who have publicly made 
sermons calling to murder Jews. This is a hadith that is 
related to the Koran that is considered very holy.
    The leaders of the Muslim world from Al-Azhar University 
have made vile statements against Jewish people, and we really 
need to have Muslims step up and do what President Sisi says, 
and there has to be a reformation and a rethinking of the 
aspects of the Koran that promote hatred against Jews.
    That is why you have constant murder of Jews in Israel, 
despite the fact that Israel has offered a State to the 
Palestinian Authority 4 times in the last 20 years. So, this 
is, to me, one of the most serious issues as to why are half 
the world's Muslims anti-Semitic? Why are 75 to 95 percent of 
the Muslims in the Middle East anti-Semitic? Why are one-third 
of Muslims in America anti-Semitic? Which is two to five times 
the rate of anti-Semitism of any other group.
    This has to be explored. People are afraid to because then 
they are called an Islamophobe. This has nothing to do with 
Islamophobia. It has to do with the truth, with data that ADL 
themselves has put forth, surveys have put forth. Pew has also 
put forth similar data.
    Why is this an issue? We have to talk about this Muslim 
anti-Semitism because this is endangering Jews really in 
America and throughout the world. God forbid, this will be 
translated into physical violence even greater than we are 
seeing today.
    Mr. Steube. Thank you, Mr. Klein.
    I will take the balance of my time to the gentleman from 
Texas.
    Mr. Gohmert. I thank my friend. It is interesting that the 
first person and possibly the only American ever ordered killed 
by a U.S. President with a drone strike was Anwar al-Awlaki. 
The only reason he was a U.S. citizen is his parents came over 
on a visa, and he was born. They took him back to Yemen, taught 
him to hate America.
    He was working with the Bush Administration and the Obama 
Administration, and apparently, as an imam, he was encouraging 
terrorism that they didn't realize at the time. Apparently, 
that justified killing an American citizen without a trial just 
through the drone strike.
    I really appreciate the atmosphere here. Ms. Paterson, you 
sound like somebody I would love to be listening to every day 
all day, and I would just encourage you, in the name of 
eliminating hate, it helps if you don't misquote or 
mischaracterize statements of the President.
    He never said asylum seekers are animals. He was talking 
about MS-13. If you see the pictures of what they have done, I 
don't condone calling humans animals, but I have sent people to 
prison. I have even sentenced people to death, and I agreed 
with James Byrd's killers being sentenced to death.
    Thank you. My time has expired.
    Chairman Nadler. I thank the gentleman.
    The gentleman from California, Mr. Lieu?
    Mr. Lieu. Thank you, Mr. Chair.
    In congressional hearings, the minority party gets to 
select its own witnesses, and of all the people that 
Republicans could have selected, they picked Candace Owens. I 
don't know Ms. Owens. I am not going to characterize her. I am 
going to let her own words do the talking.
    I am going to play for you the first 30 seconds of a 
statement she made about Adolf Hitler.
    [Begin audio clip.]

          Ms. Owens. I agree. I actually don't have any 
        problems at all with the word ``nationalism.'' I think 
        that it gets--the definition gets poisoned by elitists 
        that actually want globalism. Globalism is what I don't 
        want.
          So, when you think about whenever we say nationalism, 
        the first thing people think about, at least in 
        America, is Hitler. You know, he was a national 
        socialist. But if Hitler just wanted to make Germany 
        great and have things run well, okay, fine. The problem 
        is, is that he wanted--he had dreams outside of 
        Germany. He wanted to globalize. He wanted everybody to 
        be German, everybody to be speaking German--

    [End of audio clip.]
    Mr. Lieu. All right. So, my first question is to Ms. 
Hershenov. Ms. Owens said, ``If Hitler just wanted to make 
Germany great and have things run well, okay, fine. The problem 
is, is that he wanted--he had dreams outside of Germany.''
    So, when people try to legitimize Adolf Hitler, does that 
feed into White nationalist ideology?
    Ms. Hershenov. It does, Mr. Lieu. I know that Ms. Owens 
distanced herself from those comments later, but we expressed 
great concern over the original comments.
    Mr. Lieu. Great. Thank you.
    So, there has been a lot of talk today. I would like to 
focus on actual policy responses that our Government can do to 
try to mitigate the threat of White nationalism. I know that in 
my district in Los Angeles just last month, two swastikas were 
painted at Pan Pacific Park along with a trail of blood. I met 
with Jewish constituents in my district who mentioned that at 
their synagogues, they have all had an increase in security.
    As you know, there is a nonprofit security grant program at 
the Department of Homeland Security. Do you believe it would be 
worthwhile to increase funding to that program?
    Ms. Hershenov. The ADL has, for establishment reasons, 
First amendment reasons, been very cautious and wary of 
Government funding to religious institutions. That being said, 
we well understand the fear and the safety. So, I think that is 
something that has to be done very carefully in terms of when 
entanglement.
    I know in the place in Westchester County, where I live, 
the State and local governments provide a great deal of 
protection to the synagogue to which I belong. So I do 
understand, and I would like to work more with Congress. I want 
to caution about where we entangle. This is a very difficult 
thing to do because when we are scared like this, of course, we 
want money.
    Mr. Lieu. So, that is a great point you make, and I want to 
note that this program would apply to mosques, as well as 
synagogues. So, it is not specific to the religion. It is true. 
The First amendment does affect all of these issues, including, 
for example, private sector companies to say whatever it is 
that they want.
    Now, I would like to also talk about a second program, and 
this was one that under--I ask Ms. Clarke about, and it has to 
do with the Trump Administration wanting to cut a very specific 
office called the Community Relations Service Office in the 
Civil Rights Division at Department of Justice. Can you first 
explain to the American people what that office does and why it 
would be a bad idea to cut funding?
    Ms. Clarke. The Community Relations Service Office is a 
very critical part of the Justice Department. They are 
considered the peacemakers. They are the ones who step into 
communities that are embroiled in the aftermath of a hate 
incident. They are the ones who you would want to deploy out to 
Louisiana, to the parishes where the churches are burning right 
now. They are the ones that you would want on the ground right 
after the Charlottesville hate rally.
    We are deeply concerned by proposals to cut funding to this 
office, to shift this office to another part of the agency. It 
is important that this agency's work be completely 
nonpolitical. The very subject matter of this hearing today 
underscores the urgency of maintaining this office that has 
been with us for decades.
    Mr. Lieu. In fact, one of the reasons that this office has 
worked well is because of people who go there and get 
interviewed. It is not a prosecutorial office, and does that 
make it easier for people to provide information?
    Ms. Clarke. That is right. They are the peacemakers. They 
are the ones who go in and connect with the communities that 
are suffering in the aftermath of a hate incident. They connect 
with victims of crimes, the hate crimes, and connect them with 
services.
    Most importantly, they are the ones who help to ensure that 
an incident doesn't escalate and lead to more tension. So, we 
need this agency now more than ever.
    Mr. Lieu. Thank you, and I yield back.
    Chairman Nadler. The gentleman from North Dakota, Mr. 
Armstrong?
    Mr. Armstrong. Thank you, Mr. Chairman.
    I would yield my time to Mr. Reschenthaler from 
Pennsylvania.
    Mr. Reschenthaler. Thank you.
    Ms. Owens, I am sorry. We just heard a recording. Would you 
like time to respond to that?
    Ms. Owens. Yes. I think it is pretty apparent that Mr. Lieu 
believes that Black people are stupid and will not pursue the 
full clip in its entirety. He purposely presented an extracted 
clip.
    [Gavel sounding.]
    Chairman Nadler. The witness will suspend for a moment. It 
is not proper to refer disparagingly to a member of the 
committee. The witness will not do that again.
    The witness may continue.
    Ms. Owens. Sure. Even though I was called despicable.
    Chairman Nadler. A witness may not refer to a member of the 
Committee as stupid.
    Ms. Owens. I didn't refer to him as stupid. That is not 
what I said. That is not what I said at all. You didn't listen 
to what I said.
    May I continue?
    Chairman Nadler. Please.
    Ms. Owens. As I said, he is assuming that Black people will 
not go, pursue the full 2-hour clip, and he purposefully 
extracted, he cut off, and you didn't hear the question that 
was asked of me. He is trying to present as if I was launching 
a defense of Hitler and Germany when, in fact, the question 
that was asked of me was pertaining to whether or not I 
believed that Hitler--whether or not I believed in nationalism 
and that nationalism was bad.
    What I responded to was that I do not believe that we 
should be characterizing Hitler as a nationalist. He was a 
homicidal, psychopathic maniac that killed his own people. A 
nationalist would not kill their own people.
    That is exactly what I was referring to in the clip, and he 
purposely wanted to give you a cut-up similar to what they do 
to Donald Trump to create a different narrative. That was 
unbelievably dishonest, and he did not allow me to respond to 
it, which is worrisome and should tell you a lot about where 
people are today in terms of trying to drum up narratives.
    By the way, I would like to also add that I work for Prager 
University, which is run by an Orthodox Jew, and a single 
Democrat showed up to the embassy opening in Jerusalem. I sat 
on a plane for 18 hours to make sure that I was there. I am 
deeply offended by the insinuation of revealing that clip 
without the question that was asked of me.
    Mr. Reschenthaler. Thanks, Ms. Owens, and I yield the 
remainder of my time.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Maryland, Mr. Raskin?
    Mr. Raskin. Thank you very much, Mr. Chairman.
    I want to start by thanking you for calling this hearing 
today, and I wanted to thank my colleagues and the witnesses 
for engaging seriously with a serious problem.
    I am proud also that I am a Member of the House of 
Representatives that adopted the most comprehensive and 
forceful denunciation of anti-Semitism in the history of the 
U.S. Congress on March 7, 2019. One of our colleagues has 
repeated the talking point that somehow this was a watered-down 
resolution because we included other forms of racism and 
bigotry and hate violence. I just want to take a second to 
dissent from that view.
    The White supremacists and nationalists that we are 
discussing today hate minorities of almost every particular 
color, religion, race, character, ethnicity. So, how could it 
conceivably be an effective or comprehensive response to the 
problem that faces us today to pick out one form of bias and 
prejudice and to target simply that one?
    Speaking as a Jewish person, I feel very strongly that the 
effort to defend Jews against anti-Semitism is intricately 
linked to the effort to defend African Americans and Hispanics, 
Members of the LGBT community, Muslims, and others against 
White nationalist, White supremacist, and racial violence.
    So far from watering the resolution down, we strengthened 
that resolution. We made it a powerful statement of the values 
of this institution.
    Now, Ms. Hershenov, I want to come to you. In 2018, there 
were thousands of hate crimes across the country, and 50 people 
in America were murdered by domestic extremists, which marks a 
30 percent increase over the prior year. Forty-nine of the 
people murdered, or 98 percent, died at the hands of White 
nationalists and White supremacists and anti-government 
extremists, as you have described them.
    In 2017, the FBI documented more than 7,000 hate crimes, 
which was a sharp increase over just a few years before. These 
are crimes that are motivated by racism, anti-Semitism, anti-
Muslim bias, and anti-LGBT bias.
    Now, the Anti-Defamation League is involved every single 
day in the struggle against hate crimes and hate violence. The 
Administration, as I understand it, has made an 84 percent cut 
from a program called Combatting Violent Extremism. The budget 
went from $21 million under the prior Administration to $3 
million in this Administration, slashing the staff from 16 
full-time employees to 8 or fewer.
    Will you tell us about the Combatting Violent Extremism 
program and what this cut might mean?
    Ms. Hershenov. Thank you.
    What we need and what the ADL wants is preventing violent 
extremism. Now, I want to acknowledge that there have been 
criticisms from some of my colleagues in vulnerable communities 
that sometimes in the past that program profiled Muslims. I 
want to say something. I want to take this moment to clarify 
from our experts who track violence from those who pervert the 
Muslim faith.
    There is absolutely anti-Semitism among them, as there is 
among all extremists. However, suggesting that this reflects 
the whole of the Muslim community is inaccurate and strikes 
fear and perpetuates conspiracies against all Muslims, which we 
have seen the results in real life.
    Mr. Raskin. You certainly would not want to ascribe 
extremist, racist, or terrorist views to particular religions. 
At that point, we are just headed toward religious warfare, 
right?
    Ms. Hershenov. Absolutely. So, there needs to be much 
more--you are right, Mr. Raskin, much more in preventing 
violent extremism in tracking and then interrupting that 
violence. But, what I would say the ADL actually believes that 
civil society groups, like those that Ms. Paterson and others 
are, and academics and academic institutions, are better 
situated right now to look at the deradicalization.
    Where is hate? How do we do it? Where is the prevalence? 
How to do we attack it?
    Mr. Raskin. Let me stop you there just because I want to 
get one question in to Ms. Paterson. I appreciate that.
    Ms. Hershenov. Right.
    Mr. Raskin. So, one of the groups that lost money was 
called Life after Hate. They had a $400,000 grant that just got 
axed. We headed a big rally against the White supremacists who 
came to Washington on the 1-year anniversary of the 
Charlottesville murder of Heather Heyer. We had people from 
this group, Life after Hate, they took young people who had 
gotten into extremist groups because it gave them a sense of 
belonging. It gave them a sense of Membership.
    Some people are actually racist, anti-Semitic ideologues, 
and others are confused, unemployed young people who have 
nowhere to go, and this group is working to get them out of it, 
Life after Hate. I wonder what you know about Life after Hate 
and other groups that are actually trying to get young people 
out of this dead end of White extremist activity?
    Chairman Nadler. The gentleman's time has expired. The 
witness may answer the question.
    Ms. Paterson. I have read very compelling stories from 
people who used to be skinheads and White supremacists who 
figured out this was wrong, and they went a different way. And 
once again, I would say to all Members of this committee, but 
particularly the Republicans, to say to the administrative 
branch of Government, to the executive, please fund these 
programs.
    It is nice that you talk about your aversion to White 
supremacy, but we need some muscle behind it, these programs 
that you are talking about.
    Chairman Nadler. I thank the gentleman.
    The gentlelady from Florida, Ms. Demings?
    Ms. Demings. Thank you so much, Mr. Chairman.
    Thank you to all of our witnesses here today. It is good, 
certainly keeps me on my toes and keeps me very focused to hear 
all perspectives.
    I am glad today to see my colleagues on the other side of 
the aisle and hear their great concern today about extremist 
and racist behavior because these behaviors have existed in 
this country since 1619. So, Ms. Paterson, thank you for taking 
us back to the beginning, where slaves--maybe we need to be 
reminded, the world is watching--were tortured, beaten, raped, 
and hung. Children separated from their parents.
    We have seen that before. If that is not enough for you, I 
join my colleague Mr. Gohmert in remembering a young man who 
was tied to the back of a truck and was dragged until his body 
was unrecognizable as a human being. I join you, Mr. Gohmert, 
in remembering James Byrd.
    If that is not enough for you, then let us remember a young 
student who was pistol-whipped, tortured, beaten, and tied to a 
fence, and left to die and which he did. Today, we remember a 
young man by the name of Matthew Shepard.
    Hateful rhetoric does have consequences, and Doctor, we do 
extend our deepest condolences to you regarding what happened 
to your family.
    One of my colleagues today said that nothing that White 
nationalists claim resonates with any of us here today. Well, 
if that be true, then you all would denounce hate at all times 
and not just wait until things are said that you don't like 
about a particular group or wait until a time when it is 
politically advantageous.
    I do believe that in this country, we are better than that. 
Let me remind my colleagues, because we are the ones with the 
authority and the power to make the decisions, it took my 
Republican colleagues over a decade to take any action against 
one of their own who had a reputation of making disparaging 
remarks. What are we going to do about it? Because you know, 
there is hope--we do have an opportunity to move forward.
    I would like to direct my question for Mr. Potts and Ms. 
Walden with regard to your platforms being used to spread hate 
and possibly violence. The hateful rhetoric comes first, it 
seems, and then the action comes to follow.
    Groups, including the Leadership Conference on Civil 
Rights, Civil Human Rights and Color of Change, have called for 
civil rights audits of tech companies after repeated failures 
to effectively and timely remove violent content, particularly 
relating to hate crimes. We have heard about New Zealand, so I 
don't need to talk about that.
    Would your companies be willing to submit to an external 
audit from academics and other external stakeholders? I would 
like to know why or why not. Mr. Potts, we will start with you.
    Mr. Potts. Thank you, Congresswoman.
    Currently, we have employed Laura Murphy, one of the 
leading civil rights leaders, civil liberties leaders in 
America to do a civil rights audit. She actually published her 
first set of findings in January of this year, and she will 
continue to examine our processes, our policies, and the room 
for unintentional bias that may creep into our system.
    Then I would assume that she will also make those public. 
Obviously, we give Ms. Murphy a lot of space to do her audit. 
She will conduct that in a deliberate way.
    Ms. Demings. So, you have already agreed to make those 
results public?
    Mr. Potts. Some of those results are currently public right 
now.
    Ms. Demings. Thank you very much for that. Because it is 
about getting better, isn't it? It really is.
    Mr. Potts. Absolutely.
    Ms. Demings. Thank you. Ms. Walden?
    Ms. Walden. Thank you.
    We didn't receive a similar request to do an audit. 
However, we work very closely with organizations like the 
Leadership Conference, like Lawyers' Committee, like ADL, 
Muslim Public Affairs Council, et cetera. We are part of ADL's 
Cyber Hate Problem-Solving Lab, and so we work very closely 
with organizations to ensure that their work informs the way 
that we think about these issues.
    Ms. Demings. Would you be willing to submit to an audit?
    Ms. Walden. We undergo audits under the European Code of 
Conduct on hate speech already. So, that is certainly something 
we have made public and I think are willing to do so.
    Ms. Demings. So, it is something you are willing to take a 
look at?
    Ms. Walden. Absolutely.
    Ms. Demings. Okay. Thank you.
    Mr. Chairman, I yield back. Thank you.
    Chairman Nadler. I thank the gentlelady.
    Ms. Scanlon of Pennsylvania?
    Ms. Scanlon. Thank you very much.
    Today's hearing comes at a time when incidents of hate and 
violence are increasing at an alarming rate. As I am sitting 
here listening to the testimony today, I am thinking about the 
impact just in my own district.
    In October, I attended services at our local temple after 
the Squirrel Hill incident and had to pass the police cars 
parked outside to protect the temple. Just a couple weeks ago, 
I went to a local mosque in Upper Darby to meet with our Muslim 
neighbors there after the shooting in New Zealand and had to 
pass the police cars there.
    On Sunday, I was in Charleston with family, for a family 
event, and took the opportunity to attend services at Mother 
Emanuel, as I had 2 years previously. I did have some 
consolation while I was there in knowing that just a few weeks 
ago, this Committee held hearings on gun violence, and the 
House passed the Charleston loophole bill, which would have 
denied a gun to the White supremacist who murdered people at 
Mother Emanuel. So, we have made a little bit of progress, but 
we are far, far from being through.
    Just the fact that we hear that White nationalists are 
fundraising off this hearing today by live streaming it is 
really, really troubling.
    Ms. Clarke, can you speak to what more the Justice 
Department could be doing in this space?
    Ms. Clarke. Thank you for that question.
    We have talked a lot about hate crimes and the need for the 
Justice Department to bring more resources to bear, 
investigating and prosecuting the perpetrators. I want to make 
sure that before we close out this hearing, we also talk about 
the impact of hate on children.
    We know that there has been a 25 percent increase in hate 
incidents in the K to 12 context. Again, this is a place where 
the Justice Department has resources at its disposal to make 
sure that our schools are safe environments, safe learning 
environments for all kids, regardless of race.
    We are also seeing hate play out in the workplace. Here, 
too, the Justice Department can play a role in stamping out the 
hate that African Americans, Muslims, and other minorities are 
experiencing in the workplace. We need a Justice Department 
that is willing to roll up its sleeves and bring every resource 
to bear on combating this crisis.
    We know through our own work at the Lawyers' Committee for 
Civil Rights under Law that law enforcement agencies on the 
ground are often ill-equipped and under resourced and not 
prepared to confront hate. So, making sure that the Justice 
Department is stepping in to provide support, to bring 
perpetrators to justice, thinking about hate and how it is 
playing out in schools and at workplaces is also critical.
    Then, finally, data collection is so key. We know that 
there are a lot of hate crimes that go under reported. More 
importantly, a lot of law enforcement agencies fail to report 
data to the Federal level, as they are required to. Finding 
ways to incentivize better data collection and better data 
reporting is also crucial in the war against hate.
    Ms. Scanlon. Okay. Thank you for that.
    Ms. Hershenov, we have seen a little bit of this even today 
where minority groups are being pitted against one another, and 
I don't want to let the White supremacists--I don't want to do 
their work for them by pitting people against each other.
    The ADL has been pretty vocal that there is no evidence 
that hate crimes in the U.S. against Jewish people are being 
committed by Muslims and vice versa, that hate crimes against 
Muslims in the U.S. are being perpetrated by Jewish people. Can 
you speak to what your research shows and how White 
supremacists are using the strategy of pitting Jews and Muslims 
against each other to drum up divisive rhetoric and a false 
narrative about who is committing domestic terrorism here in 
the U.S.?
    Ms. Hershenov. Yes. Thank you, Representative Scanlon.
    I think you have brought up again the need to look at the 
data and to be very transparent about it so everyone else can 
look at it and make sure. Because it is true that we are not 
seeing Muslims in the United States attacking Jews or vice 
versa.
    When in a democratic pluralist society, like the United 
States should be, is meant to be, if we don't join in coalition 
and have each other's backs, no minority is safe, and the only 
winners are those who sow division and try to divide us.
    Whether that is for White supremacist agendas, whether that 
is either Democrats or Republicans using it for political gain, 
whatever that is, who wins? I don't want to be the Jewish 
people or any people to be a prop for that. I thank both Mr. 
Raskin and the GOP Senators who have made these comments and 
made statements against hate. Don't use us as props.
    That is what is happening. It is a divide and conquer, and 
who really wins then? The haters win.
    Ms. Scanlon. Thank you.
    Chairman Nadler. The time of the gentlelady has expired.
    Ms. Garcia of Texas?
    Ms. Garcia. Thank you, Mr. Chairman.
    I, too, want to thank you for having this hearing on this 
very important topic. I know that for me and my district that 
is overwhelmingly Latino, we are seeing more incidents occur 
that we believe to be hate crimes.
    I have today, Mr. Chairman, the written testimony of the 
late David Richardson, a Houston area resident, who testified 
in front of this Committee on April 17, 2007, about his 
experience as a hate crime survivor. Mr. Richardson was 
viciously attacked by two individuals, targeted for being 
Mexican American.
    His attackers, one an admitted racist skinhead, attempted 
to carve a swastika on his chest. Richardson was brutally beat 
to a pulp, burned with cigarettes, and left for dead. 
Richardson woke up in the hospital weeks later, his life 
changed forever. The former Klein Collins High School running 
back and homecoming prince spent 3 months in the hospital and 
endured more than 30 surgeries.
    Incredibly, the assailants had no specific liability under 
Federal law for the hate crimes committed. Mr. Richardson gave 
his testimony to this very Committee while advocating for the 
Local Law Enforcement Hate Crimes Prevention Act of 2007, which 
expanded the ability to prosecute hate crimes.
    President Obama signed a version of that bill into law in 
2009, but sadly, Richardson would not live to see the fruits of 
his courage in speaking out against hate as a survivor. At 18 
years old, Richardson committed suicide a mere 3 weeks, mere 
weeks after testifying here. Today's dialogue is important as 
we examine the ways in which harmful rhetoric and policies on 
the national stage have been involved in hate.
    I want to start my questions with you, Ms. Hershenov. As 
one of my colleagues said, we are not trying to compete here. 
The truth is, is there is a rise in crime against--hate crimes 
against immigrants particularly. You quoted the rhetoric of the 
New Zealand shooter who said that we needed to stop the 
invaders.
    How alarming is the increase? Is it acute? In other words, 
have you compared trends? Have you looked at your data? Is it 
just critically increasing in terms of crimes against 
immigrants or Latinos?
    Ms. Hershenov. Yes, there is a slight increase. I think if 
you look at the FBI data, which is from 2017, you see that 
there is all of this has risen. Jews up 37 percent. Religion, 
27 percent. Ethnicity up, as attacks against immigrants and 
refugees up. So, yes.
    Ms. Garcia. It is? I am going to say I want to direct my 
questions now to the representatives from Facebook and Google. 
You have not made me feel any better. I just don't feel any 
sense of reassurance in your presentations and your demeanor in 
terms of what we are doing to respond to a lot of the messaging 
that is on social media. Not just Facebook and Google, but also 
through Twitter, through Amazon, through YouTube, through all 
of that.
    You are both globally, what have you done to ensure that 
all your folks out there globally know the dog whistles, know 
the key words, the phrasing, and the things that people respond 
to, to ensure that we can stop some of this and be more 
proactive in blocking some of this language?
    Ms. Walden. Congresswoman, thank you for the question.
    That is exactly one of the things that we are constantly 
thinking about. It is true that those who seek to exploit our 
platforms are uniquely motivated, and their tactics are ever 
evolving. That is why we have--internally, we have an intel 
desk that looks to see and track trends of what we are seeing 
on our platform. Also we engage with external experts so that 
we can understand what others are seeing.
    As language changes, it is important for us to be able to 
understand things like you said, like dog whistles, so that we 
know when slurs are happening as part of comments or in videos 
that our reviewers are reviewing.
    Our global--oh.
    Ms. Garcia. Mr. Potts?
    Mr. Potts. Excuse me. Thank you, Congresswoman.
    We do have 30,000 people now focused on safety and 
security, and within that 30,000 people, we have specific 
subject matter experts that focus on this area. So we have 
academics. We have other people who come from civil society, 
human rights backgrounds, who really dive deep in this area.
    We do use a lot of our automation and artificial 
intelligence to help surface, to help provide that data 
analysis. Then the other key part is the partnerships. So, 
working on not only just across industry, but with civil 
society, working with external consortiums, with academia, to 
get ahead of those trends so we see those signals.
    Then we try to write policies that can actually get and 
target that, and then we can remove it from the platform.
    Ms. Garcia. Well, I hope you do more.
    Thank you.
    Ms. Scanlon. [Presiding] The time has expired.
    The chair recognizes the gentlewoman from Washington.
    Ms. Jayapal. Thank you, Madam Chair.
    Thank you all so much for being here. I appreciate it very 
much, and I appreciate that we are having this important 
hearing.
    I did want to say just before I get to my questions that 
the Ranking Member talked about the need to call out hate and 
stop playing to 15 minutes of fame, I think is the way it was 
phrased. I do have to wonder then why the minority called some 
witnesses who have, in fact, actually traded in just this. It 
is not that we want to--
    Mr. Collins. Would the gentlelady yield for just half a 
second?
    Ms. Jayapal. Not right at this moment, but I will at the 
end.
    Mr. Collins. Okay, I appreciate it.
    Ms. Jayapal. My concern about the characterization of some 
of what has happened is that we have a mass murderer who really 
did trade in hate--50 counts of murder, 39 attempted murder 
counts--who did call out one of the witnesses on this panel as 
being his inspiration. Whether or not she was, I am not 
contending, I am not contesting that.
    I think that for people across the country who are watching 
this hearing, the idea that somehow we could give any 
legitimacy to speech that in any way might be considered as 
triggering that kind of action, that is different than saying 
somebody is responsible, which I would never say.
    I do think that it is deeply hurtful for people across this 
country who might be watching this to see some of those things 
expressed or given legitimacy to. I just want to say, that is 
an important consideration, and we have gotten a lot of emails 
about this, and I know there were many things that were entered 
into the record.
    I also ask unanimous consent, Madam Chair, to enter into 
the record a statement from the Western State Center and a 
statement that was sent by a number of MASA groups, Muslim, 
Arab, South Asian groups. I ask unanimous consent.
    Chairman Nadler. [Presiding] Without objection.
    [The information follows:]

    
                       MR. JAYAPAL FOR THE RECORD

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Ms. Jayapal. Thank you.
    So, let me go to my questions now, and my first question is 
for Mr. Potts. Following the tragic hate crime in New Zealand, 
Facebook did ban explicit praise, support, or representation of 
White nationalism and White separatism on Facebook and 
Instagram. In my opinion, this change was long overdue. It 
probably should have been done a long time ago, given the 
evidence that you had following Heather Heyer's death at the 
2017 White supremacist rally.
    So, what are you doing now that you have put this into 
place to ensure that the ban is fully enforced?
    Mr. Potts. Thank you, Congresswoman.
    Obviously, condolences to Ms. Heyer's family. Those tragic 
events still ring very strong to my mind, as a graduate of the 
School of Law at the University of Virginia.
    Just to be clear, on the policy banning White nationalism 
and White separatism, we have been looking at it for a fairly 
long time. We started the process in September to really 
examine can we move forward to find the linkage to organized 
violence, organized hate from those terms?
    We met with a wide range of groups globally--North America, 
Europe, Africa, elsewhere--to really focus in, to see what 
those groups would say across the spectrum--
    Ms. Jayapal. Mr. Potts, I am so sorry. I don't want to cut 
you off, but I have very little time, and I just wanted to see 
if you could address the fact that there are still White 
nationalist pages on your site. I appreciate the process the 
process you went through.
    Mr. Potts. I fully--I am sorry, Congresswoman.
    When we become aware of these pages, we will remove them. 
We do, do that through a variety of ways, both reactively, when 
someone reports that to us, we will remove those pages if they 
violate our terms. We also are doing some proactive surfacing 
of those to human reviewers so that they can also review at 
that time and remove.
    So, it is fully holistic approach that we take and try to 
really leverage our technology in that space, and we are hoping 
to get faster.
    Ms. Jayapal. Thank you.
    Civil rights organizations have asked you specifically for 
greater transparency on your enforcement practices and 
training. Can you commit to sharing your enforcement practices 
and training procedures with the public?
    Mr. Potts. Congresswoman, first, again protecting civil 
rights is something that is core to us at Facebook, something 
that is very personal to me, something that we really want to 
lean into.
    Ms. Jayapal. If you can't, you know, if you are concerned 
about privacy issues, will you at least commit to sharing it 
with Congress and with stakeholders as soon as possible?
    Mr. Potts. As Ms. Murphy, Laura Murphy is doing her 
assessment, I am sure that is also going to be part of the 
assessment--
    Ms. Jayapal. Is that a yes? Or is that a yes or a no?
    Mr. Potts. If we are able to share it--
    Ms. Jayapal. Would you share your enforcement practices 
with Congress so that we can make sure that there is 
enforcement around--
    Mr. Potts. If we are able to share them, I can commit to 
that. I don't know the privacy--
    Ms. Jayapal. Okay. How about you, Ms. Walden? Can you give 
me a clear yes?
    Ms. Walden. Yes. We make all of our enforcement--we have a 
transparency report about our enforcement guidelines, and we 
already demonstrate sort of what we are doing with machine 
learning, what is done with community flagging, and what is 
done on hate specifically.
    Ms. Jayapal. There you go. Okay. So, does your enforcement 
policy include a trusted flagger program for vetted respected 
civil and human rights organizations to expedite review of 
potential hateful activities?
    Mr. Potts. Congresswoman, we do have partnerships with a 
number of organizations, including some civil rights 
organizations where they have that. And I--
    Ms. Jayapal. Just say yes or no.
    Mr. Potts. I think I misunderstood your other question 
about the enforcement. We do share a community standards 
enforcement report. That is transparent. We do that twice a 
year. So, I apologize for misunderstanding.
    Mr. Collins. I know the gentlelady's time, but do you still 
give me a moment?
    Ms. Jayapal. If the chair will. Chairman?
    Chairman Nadler. I will grant--
    Mr. Collins. I thank the gentlelady.
    Ms. Jayapal. I just want to make sure I can reclaim my time 
if I find--
    Mr. Collins. All I want to simply say is it has been 
brought up in my time, and it was specifically, and you can go 
back to my question, Mr. Potts, was concerning those who were 
livestreaming violence, such as the Act that was in New 
Zealand. That was the context. Every one of the Members of this 
body takes their own 5-minute YouTube moment. So, those kinds 
of fame we understand. I was not talking about that and never 
was talking about.
    My specific request was a discussion on the New Zealand and 
how we could actually take those away from them because that is 
what they see. That was all I intended, and to claim anything 
else is less than, what was I--
    Ms. Jayapal. No. Thank you.
    I was not disagreeing with you, Mr. Collins. I actually 
agreed with your statement. I just wondered why the minority 
invited witnesses that clearly have some very controversial 
pieces in their background, including one who would seem to be 
the biggest influence on the White supremacist who slaughtered 
49 worshippers, in his words. This is not saying that you 
believe this, but in his words.
    So, Mr. Chairman, I yield back. Thank you.
    Chairman Nadler. The gentlelady yields back.
    The gentlelady from Georgia, Ms. McBath?
    Ms. McBath. Thank you, Mr. Chairman.
    As a survivor of a hate crime myself, I want to begin by 
reading a statement from two of the survivors of one of the 
horrific acts of hatred that took the lives of Americans, 11 
Americans last year.

          ``On October 27, 2018, an individual fueled by White 
        nationalist hatred entered the Tree of Life synagogue, 
        murdered 11 innocent people, and seriously wounded 2 
        community Members and 4 of our dedicated Pittsburgh 
        police officers. We are survivors of that violent Act 
        of extremist hate.
          ``We do not want others to have to endure what we and 
        our community have had to endure. We, therefore, urge 
        you to take the measures necessary to combat this 
        rising tide of hate and violence. Make sure that our 
        law enforcement agencies are organized and have the 
        resources to monitor and combat this threat. Adopt 
        simple, common sense measures to keep dangerous weapons 
        out of the wrong hands.
        ``Thank you so much for listening to us, and thank you 
        for all of your efforts on behalf of our country. 
        Sincerely, Martin Gaynor and Daniel Leger.''

    Mr. Chairman, I ask unanimous consent that this full 
statement be entered into the record.
    Chairman Nadler. Without objection.
    [The information follows:]

   
                       MS. McBATH FOR THE RECORD

=======================================================================

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	

    Ms. McBath. Thank you.
    Dr. Abu-Salha, like Mr. Gaynor and Mr. Leger, you and I are 
survivors. Each of us has lost loved ones because of a deadly 
combination of prejudice and a firearm, whether that hatred was 
directed toward a Black son, Muslim daughters, or a Jewish 
congregation.
    As we work to remember the people who have been taken from 
us, we are constantly reminded of the bigotry that claims more 
lives every single day. Hatred has already made survivors out 
of so many of us, and there will be more survivors every day 
that that hatred and that White supremacy is allowed to 
persist.
    Dr. Abu-Salha, in your view, please tell me what resources 
are needed for the rising numbers of survivors of hate crimes, 
both immediately after an incident and in the months and years 
afterwards?
    Dr. Abu-Salha. Well, thank you, Congresswoman.
    So, I want to point out that many American States don't 
have hate crime laws. The great State of North Carolina, where 
I come from, has an ethnic intimidation law in place, which I 
cannot really understand or explain. First of all, we have to 
have hate crime laws in every State.
    Number two, I think we need to revisit the definition of 
hate crime. It is really insufficient for us to ask, to prove 
it is a hate crime, the criminal has to declare why he is 
killing the victim. I refer to a professor of criminology at 
Northeastern University, Jack McDevitt, who defined Hicks' 
crime as a hate crime because, number one, the given cause for 
the crime was trivial to the atrocity of the crime. Number two, 
he did pick and choose targets for his hate of religion that is 
the most vulnerable religion.
    Since I have an opportunity to speak, I would like to go 
back to Mr. Klein's question and emphasize that I was trained 
in medical school by Jewish professors. I have Jewish friends. 
My son has best friends who are Jewish. Jewish community came 
to our rescue, and we had an interfaith night after the New 
Zealand massacre.
    I find it troubling that Mr. Klein turned this conversation 
into almost an Islamophobic conversation. When I am talking 
about my tragedy and my loss as Muslim, and he called me again 
on that. And also mixing the concept of what is a Jewish 
American versus an Israeli citizen? We are not here to discuss 
foreign policy, and Mr. Klein mixed foreign policy with our 
discussion today too much, way too much.
    I define myself as a Muslim American. I hold on to my 
freedom and my privacy of thought, and I don't have to give any 
pledge of allegiance to any foreign power to prove my case.
    Ms. McBath. Thank you very much.
    Ms. Clarke, how can the Government support communities 
targeted by intolerance, whether they have faced a particular 
incident of violence, threats of violence, or hate of speech--
or hate speech, rather?
    Ms. Clarke. Well, we know that hate crimes are on the rise. 
We also know that a tremendous number of hate incidents go 
under reported. I think it is important that law enforcement 
demonstrate a real commitment to standing up and providing 
support for victims when hate incidents happen. I think it is 
critical that they work with prosecutors to make sure that 
perpetrators are held accountable.
    Most importantly, I think it is important that they speak 
up and use their voice to condemn these incidents when they 
happen because the silence can be truly deafening.
    Ms. McBath. Thank you. I yield back the remainder of my 
time.
    Chairman Nadler. I thank the gentlelady.
    The gentleman from Colorado, Mr. Neguse, is recognized.
    Mr. Neguse. Thank you, Mr. Chairman.
    Thank you to the witnesses for being here today. In 
particular, Dr. Abu-Salha, thank you for your testimony and 
your courage, and my condolences to you for your loss.
    Today's hearing comes at a crucial time, when too many 
people in this country feel unwelcome, unsafe, and 
marginalized. We cannot allow for hate to be normalized in our 
Nation, and we cannot sit idly by. This divisive rhetoric that 
continues to pervade our national conversation demands a 
discussion and demands action.
    The Anti-Defamation League's Center on Extremism has 
reported that 71 percent of the extremist-related fatalities in 
the United States between 2008 and 2017 were committed by 
Members of the far right or White supremacist movements. The 
rise of White supremacy and hate speech has only been further 
perpetrated by the use of online platforms.
    After the Christchurch massacre in New Zealand, the video, 
as we all know, was shared countless times through online 
platforms that livestreamed the massacre of 50 people. We need 
a solution, and one will only come with the Government working 
hand in hand with the online platforms that continue to be used 
by individuals to push a hateful agenda.
    So, with that, Mr. Potts, my question is for you. First, 
thank you for being here and thank you for your service to our 
country.
    I appreciate the first steps that online platforms such as 
Facebook have taken to attempt to curb the use of their 
platforms as a base for White nationalists, including your 
company's recent decision to explicitly ban all forms of White 
nationalist and separatist content. Similar to Representative 
Jayapal, I would like to dig a little deeper in terms of how 
the policy is working in practice, obviously understanding that 
it has only been in existence for better part of a week and a 
half, I suppose.
    If you could give us some further details, I guess, for 
first starting out. My understanding is the pages you are 
screening, you are using a series of algorithms, right, on a 
daily basis to screen pages that would violate your new norms 
or standards of conduct?
    Mr. Potts. Thank you, Congressman.
    We use a series of both artificial intelligence and human 
reviewers to do what we would call proactive sweeping for that 
type of content. We use signals from our community, user 
reports to help us really hone in onto what may be White 
nationalist or White separatist behavior.
    If we do find known White nationalist or known White 
separatists or people who are affiliated with hate 
organizations, we actually have a process where we conduct what 
we call a fan-out. A fan-out is to look at that person's 
connections and ensure that we are trying to get to the root of 
those networks and to remove them from the platform.
    Mr. Neguse. On balance--thank you for that answer.
    On balance, what would the percentage be of the content 
that is shared that is sort of triggered in these--triggered by 
these algorithms or by the AI tools that you use that would be 
hosted or created by fake accounts?
    Mr. Potts. Congressman, I don't have that number, but I am 
happy to follow up. I can try to do some research, but I don't 
think we have that fidelity in a number right now.
    Mr. Neguse. Okay. It would be very helpful to have that 
data because it would be quite informative in terms of the 
steps that perhaps you all would continue to take or perhaps 
new steps that might be necessary. Here is why I am asking.
    The ADL, Ms. Hershenov, your organization prepared a study 
last year that following the horrific shooting at the 
Pittsburgh synagogue, you analyzed--or ADL, rather, analyzed 
7.5 million Twitter messages, so it is not related to Facebook, 
between August 13th-August 31st and September 17th, about 2 
weeks, and found that almost 30 percent of the accounts 
repeatedly tweeting hatred and hateful messages. Those appeared 
to be bots. I don't know if you have that data with you, but I 
suppose that you can confirm that that was the case?
    Ms. Hershenov. It is 4.2 million tweets. Forty percent were 
bots.
    Mr. Neguse. Forty percent. So given that, I guess I am 
curious, Mr. Potts, if internally in Facebook, you have had 
conversations around how to deal with the proliferation of 
those fake accounts. My understanding is last year alone, 
Facebook disabled 1.3 billion fake accounts. So to the extent--
that is why the data around the posts, the percentages of the 
content that is being flagged by your algorithm that is 
produced by fake bots, the reason why that data is so important 
is because to the extent that it mirrors some of the data we 
have seen in other mediums, I would think that rather than 
being reactive, right, that there would be a case to be made to 
addressing it at the source. That is to say addressing the 
appropriation of those fake accounts. If you would care to 
comment?
    Mr. Potts. That is correct, Congressman.
    We do have a very strong coordinated and authentic behavior 
policy that is meant to go after networks of fake accounts, and 
they are used to mislead who they are and mislead what they are 
doing.
    So, if those accounts may include White nationalist and 
White separatism content. It may include other things. It may 
be financially motivated. But, we do remove those networks 
forcefully. I believe we are well into the double digits now, 
and we continue to Act on that policy today.
    Mr. Neguse. I see my time has expired. Thank you, Mr. 
Chair.
    Chairman Nadler. I thank the gentleman.
    The gentlelady from Pennsylvania, Ms. Dean?
    Ms. Dean. Thank you, Mr. Chairman, and thank you for 
holding this important hearing.
    I am not interested in sort of the false discussion over 
whether or not White supremacy exists in America or around the 
world. It does. We know it does, and we know it costs lives.
    I would like to lift up, Dr. Abu-Salha, your testimony.
    Dr. Abu-Salha. Yes, ma'am.
    Ms. Dean. I am sorry for your crushing, unimaginable loss.
    Dr. Abu-Salha. Thank you.
    Ms. Dean. I bring back these beautiful photographs of these 
beautiful children, your children. I would argue our children. 
I thank you for telling the terrible story of their death, but 
what I am more impressed with is the story of their lives and 
how you carry that story and you repeat that story. Because I 
am confident--I was thinking here throughout this testimony, 
how do we prevent further acts of terrorism based on bigotry 
and hatred and the notions of White supremacy?
    The way we do that is to lift up stories of love. That is 
what you did. That is what you do as you sit here, and it is 
more important than any policy decision we can make, though I 
am certain we have policy decisions to make.
    So, I did want to just say that to you, and I want to open 
it to you just for a moment for anything further you wanted to 
say, but again, thank you.
    Dr. Abu-Salha. Thank you, Congresswoman.
    I appreciate that, and we are proud of them. If anything 
maintains us and helps us survive is their legacy, and their 
endowment is in excess of $1 million now for fighting bias and 
charity. You have to visit ourthreewinners.org and look at 
that.
    Fighting terrorism has been the top of the agenda of Muslim 
Americans. I think fighting terrorism rests in practicing our 
Constitution and our freedoms and our rights as Muslim 
Americans and other Americans, all together. Because when you 
single out any group, whether Jewish or Christian or Black or 
Muslim, you are making them more vulnerable to that 
radicalization.
    I think fighting terrorism is something we all agree about 
in this country.
    Ms. Dean. I thank you for that, and I will take a look at 
your programs and that marvelous endowment and that it is 
obviously an endowment of love. You could sit here and you 
could be filled with hatred, and instead, you choose not to be. 
You don't make sweeping statements about all Democrats this or 
Democrats that. So, I thank you.
    Dr. Abu-Salha. Absolutely not.
    Ms. Dean. I thank you for that.
    I wanted to talk also, Ms. Clarke, about rhetoric. In my 
past life, I taught writing and rhetoric and ethics at a 
university in Philadelphia. And so I really care about language 
and what we say as much as we need to be talking policy. But I 
want to find out from you what you think the testimony today or 
the testimony literally that we hear from this Administration 
through its words and its actions, what does that reveal, and 
how does it impact what we are doing?
    How does it impact the national climate? Because words 
matter, but how can we make that tangible for folks?
    Ms. Clarke. Right. What we have seen with this 
Administration is that words, the rhetoric, the policy actions 
matter. They are influencing how people think about and 
interact with fellow citizens who may be of a different race or 
different religion.
    At every turn with this Administration, we have seen policy 
actions that make clear that people of color have a target on 
their back, whether you are talking about the Muslim ban, 
whether you are talking about the separation of brown children 
from their parents at the border, whether you are talking about 
the assaults being waged on affirmative action by this Justice 
Department. We are seeing the dehumanization of African 
American and Muslims and other communities of color.
    Where we have seen the ugliest impact is on our kids, 
frankly. On children who are learning and internalizing hate 
because of so much of what is happening at the Federal level.
    I am deeply concerned about the rise in hate crimes that we 
are seeing at schools. We have seen about a 25 percent uptick 
in hate incidents at schools, and I think it is going to take a 
lot of work to not only push back against the crisis that we 
face, but to undo the damage and to reprogram children who have 
been harmed by what they have internalized.
    Ms. Dean. I am certain that education is going to be the 
key and our way out of this.
    Mr. Potts, real quickly, a more technical question, and 
thank you all for your testimony today. I want to quickly 
follow up with a question that my colleague Mr. Cicilline 
asked. You said you took Faith Goldy's video and page down 
yesterday, over a week after it was reported. What specific 
proactive steps, not just responding to flagged content, are 
you taking? Specific proactive steps?
    Chairman Nadler. The gentlelady's time has expired. The 
witness may answer the question.
    Mr. Potts. Thank you, Chairman, and thank you, 
Congresswoman.
    Again, the White nationalist and White separatism policy 
were just announced about a week and half ago. So, they are 
just going into enforcement. Within that policy, we are doing 
both proactive work with our artificial intelligence to surface 
content that may be violating, to get it in front of human 
reviewers, and then also using our human reviewers on reactive 
work when it is user reported.
    So for groups like Ms.--this woman whose name has just 
slipped my mind, we found out via the user report. We then 
reviewed her against our policies, and then we were able to 
remove her and then consider her to be a White nationalist.
    Ms. Dean. I just would comment that it seems to me kind of 
late to just be coming to that notion, that a week and a half 
ago, you just came up with these ideas and policies. This is 
social media, and you are an important platform and so widely 
used platform. I am disappointed that that policy is that new.
    Thank you, Mr. Chairman.
    Chairman Nadler. I thank the gentlelady.
    The gentleman from California, Mr. Correa?
    Mr. Correa. Thank you, Mr. Chairman. Thank you very much 
for holding this most important hearing to address the issue of 
hate crimes and how to prevent them and the rise of White 
nationalism.
    Back home in Orange County, California, we are not immune. 
We have also seen a sharp rise and increase of hate crimes and 
race-related incidents in the last few years. Those are just 
the crimes that are actually reported.
    As we know, 2 years ago in Charlottesville, Virginia, a 
self-professed neo-Nazi attacked a crowd of people, resulting 
in a young woman's death and injury of 19 individuals. After 
that attack, I called on Homeland Security Committee to hold a 
hearing to address hate crimes and the rise of White 
nationalism. I got nothing.
    Last October, a man shouting anti-Semitic slurs opened fire 
inside the Tree of Life synagogue in Pittsburgh. It was the 
deadliest attack against the Jewish community in the United 
States in our history. The day after that attack, I again 
called for a hearing on domestic terrorism and White 
nationalism. I got nothing.
    So today, Chairman Nadler, I applaud your leadership on 
holding this most important hearing.
    The two terrorist attacks that I mentioned are not the only 
hate crimes in the last few years. Let us not forget about 
Charleston's historic Emanuel AME Church, the Sikh temple in 
Wisconsin, and other attacks. Just yesterday, the family of 
Army lieutenant Richard Collins III shared their painful 
experience of domestic terrorism in my office.
    The family told me a story. They are constituents from 
Steny Hoyer's district. Their son, who had recently been 
commissioned, May 2017, was killed, stabbed in the heart by an 
individual inspired by White supremacist material. Here is a 
picture of Richard Collins. Young man, ready to report to the 
Army. Two weeks after graduating from Army ROTC, college Army 
ROTC, stabbed in the heart while waiting for a bus.
    In the name of all these victims, trying to prevent them in 
the future, I have a lot of questions. Ms. Hershenov, then Dr. 
Abu-Salha, I would ask you again, when our political leaders 
echo White supremacist, White nationalist ideas, does that 
inspire violence in our streets?
    Dr. Abu-Salha. Honestly, it does. If you are in power, if 
you are in charge, you are a role model. You represent your 
country. I don't want to name any names, but I am not a 
politician, so I don't really follow the details of everything 
in DC. It will be inspiring for our leaders to be uniting and 
fair and calculated when they talk about sensitive issues and 
reinforce unity and solidarity of all Americans.
    We are the most diverse country in the world, and if our 
leaders do not practice that genuinely, we are on a dark path. 
That is all I can say.
    Mr. Correa. Ms. Clarke, following up on that comment about 
diversity, my district I consider to be the new Ellis Island of 
the United States, central Orange County. We have people from 
all over the world, immigrants from all over the world, 
refugees. A lot of those kids in those schools are very 
nervous, very stressed out, and very scared. What do I tell 
them?
    Ms. Clarke. That we have done them a grave injustice and 
that we as adults need to do better, that we need to expect 
more from our national leaders, that no student deserves to go 
to a school where the N-word is scrawled on the wall or 
swastikas are found in bathrooms, where KKK fliers are 
distributed to students. These are all things that we are 
seeing right now play out inside of our Nation's schools.
    We need law enforcement to do better, and we need our 
leaders to reject policies that dehumanize students of color, 
communities of color, and most importantly, we need to all 
condemn the hate that is playing out across our country right 
now.
    Mr. Correa. Ms. Clarke, I think what you are trying to say 
is that we have to remember what America is all about.
    Ms. Clarke. That is right.
    Mr. Correa. A country of immigrants, a country of folks 
that have been rejected by their home countries and come to 
America and have made this country the greatest country in the 
world. We have to remind our children of our heritage.
    Ms. Clarke. That is right.
    Mr. Correa. Mr. Chairman, I yield.
    Chairman Nadler. I thank the gentleman.
    The gentlelady from Florida, Ms. Mucarsel-Powell, is 
recognized.
    Ms. Mucarsel-Powell. Thank you.
    Just to reiterate as we close this hearing today, it is 
important to, all of us, remember why we are here, and we are 
here to deal with the rise of White nationalism, to deal with 
the rise of violent hateful crimes, and I truly respect Mr. 
Abu-Salha for coming here and honor your children from that 
hateful incident back in 2015.
    Ms. Eileen Hershenov, can you just describe very briefly, 
so that everybody understands, in the simplest form what is 
White nationalism?
    Ms. Hershenov. White nationalism is one of the many 
euphemisms for White supremacy. The core ideology of White 
supremacy now--used to be before the civil rights movement to 
keep the dominance of the White race. Now, it is fear of the 
imminent genocide of the White race by a flood of nonwhites and 
other people whom they considered degenerates, which they say 
that flood is orchestrated by Jews as parasitic puppeteers.
    Ms. Mucarsel-Powell. So, thank you. I am an immigrant from 
Ecuador. So, would White nationalists perceive me as a threat?
    Ms. Hershenov. As an immigrant, as somebody from a--as a 
Latina, a Latinx, yes. That is the dominant ideology.
    Ms. Mucarsel-Powell. My husband is Jewish. Would he be 
perceived as a threat?
    Ms. Hershenov. He would be perceived as some omnipotent 
parasitic force loyal only to his own race and a threat to the 
White race.
    Ms. Mucarsel-Powell. My children, who were born in this 
incredible nation, but whose parents are a mix of Latino and 
Jewish, would they be perceived as a threat?
    Ms. Hershenov. Yes. What they consider miscegenation, 
whether that is African American and white, or something else, 
they would be, as having parents both of whom are from 
communities that they demean and dehumanize. Yes, they would.
    Ms. Mucarsel-Powell. Have you heard of the group the Proud 
Boys?
    Ms. Hershenov. Yes.
    Ms. Mucarsel-Powell. Okay. I was a victim of an Act of hate 
from the Proud Boys a few months ago. I was visiting the office 
of one of my now colleagues, Representative Donna Shalala, in 
Miami. The chairman of the Miami Republican Party, along with 
the Proud Boys, organized a hate rally where we had to be 
placed in lockdown because they were banging at the doors, 
screening profanities that I can't repeat in public, and we had 
to call the law enforcement officers.
    We had to wait there for a few hours. It was definitely a 
very threatening and fearful experience for me. One of the 
first times that I actually experienced it firsthand, what we 
are dealing with in this country. Thankfully, nothing happened 
to any of us. Thankfully, law enforcement came right away.
    What do you think the consequence should be to these type 
of groups?
    Ms. Hershenov. I think that the laws, the kind of tracking 
and the laws on the book, as Dr. Abu-Salha said, needed to be 
enhanced.
    There is a number of different things. Ms. Clarke has 
talked about education, and I know there is Federal legislation 
to enhance hate crime laws in the--a lot of crimes are State 
laws, and a lot of this starts online with real-life 
consequences, and no State has an anti-doxxing law. Very few 
have anti-stalking or anti-swatting. So, we need hate crime 
online and enhanced hate crime laws.
    Ms. Mucarsel-Powell. I agree fully because I can tell you 
that it was through Facebook that they got this rally 
organized, and I can tell you also that I have done my 
research, and there are still videos from the Proud Boys that 
are still trending online through various forms, one of them 
YouTube.
    So, Ms. Clarke, just to finish off, Facebook has said that 
they remove White supremacist content as soon as they are aware 
of it. From the Lawyers' Committee's experience, is that 
accurate?
    Ms. Clarke. We are very pleased that after many months, 
Facebook abandoned this ill-conceived and flawed policy of 
giving White supremacist activity the okay and--or banning 
White supremacist activity, but giving White nationalist and 
White separatist activity the red light.
    I will say that for several months, we have flagged pages 
like the Nationalist Agenda page on Facebook, and 
ItsOkayToBeWhite, and these are pages that are still up today 
as this hearing is taking place. We realize that the hard work 
lies ahead as Facebook implements this policy, but no doubt, 
tech companies must step up if we are ever going to combat the 
hate crimes crisis today because online hate is so pervasive 
and widespread.
    Ms. Mucarsel-Powell. Yes, and as Ms. Walden stated earlier 
she was concerned of aggressive oversight, I think that we have 
to work together as Congress Members, as heads of companies 
that are actually spreading this. I know it is extremely 
difficult to control, but we have to do better than this 
because we can't allow this hateful rhetoric to spread.
    Thank you so much.
    Chairman Nadler. The gentlelady from Florida for a 
unanimous consent request? From Texas. I am sorry.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I wanted to put three articles in the record. The first one 
three Black churches that burned in 10 days in a single 
Louisiana parish. I ask unanimous consent.
    Hate crimes increase for the third consecutive year, FBI 
reports.
    Then counties that hosted a 2016 Trump rally saw a 226 
percent increase in hate crimes. I ask unanimous consent to put 
those items into the record, which is a reflection of this 
hearing.
    Chairman Nadler. Without objection, the items will be 
entered into the record.
    [The information follows:]

    
                     MS. JACKSON LEE FOR THE RECORD

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Chairman Nadler. This concludes today's hearing. Thank you 
to our distinguished witnesses for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record. The hearing is adjourned.
    [Whereupon, at 1:50 p.m., the Committee was adjourned.]

                                APPENDIX

=======================================================================

[[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
